<html>
<title> - U.S. ENGAGEMENT IN CENTRAL ASIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    U.S. ENGAGEMENT IN CENTRAL ASIA

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2012

                               __________

                           Serial No. 112-185

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
75-293                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a4d527d5e484e495558514d135e525013">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           DENNIS CARDOZA, California
MICHAEL T. McCAUL, Texas             BEN CHANDLER, Kentucky
TED POE, Texas                       BRIAN HIGGINS, New York
GUS M. BILIRAKIS, Florida            ALLYSON SCHWARTZ, Pennsylvania
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey<greek-l>
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, FloridaRemoved 
JEAN SCHMIDT, Ohio                       6/19/12 deg.
TED POE, Texas                       BRIAN HIGGINS, New York<greek-l>As 
                                         of 6/19/12 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert O. Blake, Assistant Secretary, Bureau of 
  Central and South Asian Affairs, U.S. Department of State......    14
The Honorable S. Enders Wimbush, senior director for foreign 
  policy and civil society, The German Marshall Fund of the 
  United States..................................................    45
The Honorable Ross Wilson, director, Dinu Patriciu Eurasia 
  Center, Atlantic Council.......................................    53
Ariel Cohen, Ph.D., research fellow, The Kathryn and Shelby 
  Cullom Davis Institute for International Studies, The Heritage 
  Foundation.....................................................    58

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................     5
The Honorable Robert O. Blake: Prepared statement................    18
The Honorable S. Enders Wimbush: Prepared statement..............    48
The Honorable Ross Wilson: Prepared statement....................    55
Ariel Cohen, Ph.D.: Prepared statement...........................    61

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77
Written responses from the Honorable Robert O. Blake to questions 
  submitted for the record by:
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    78
  The Honorable Jean Schmidt, a Representative in Congress from 
    the State of Ohio............................................    85


                    U.S. ENGAGEMENT IN CENTRAL ASIA

                              ----------                              


                         TUESDAY, JULY 24, 2012

                  House of Representatives,
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Dan 
Burton (chairman of the subcommittee) presiding.
    Mr. Burton. It says here on my opening statement, ``Good 
morning,'' but I see now it's a little later than that. So, 
good afternoon, and the Subcommittee on Europe and Eurasia will 
come to order.
    Before I make my opening statement, I would like to 
recognize some members of Parliament from Macedonia, Kosovo and 
Liberia. They are here, and they are sponsored by the House 
Democracy Partnership. So raise your hands, guys. We really 
appreciate your being here. Thank you very much. Thanks for 
coming. Welcome.
    [Applause.]
    Mr. Burton. Good afternoon. I would like to begin by 
welcoming our good friend, the Assistant Secretary, back to the 
subcommittee. He beat me over the head to go into places 
unknown, and we had a great time. I really appreciate that. I 
believe it has now been well over a year since you testified 
before our committee, and we really appreciate having you back.
    Our topic today is U.S. Engagement in Central Asia. As many 
of you in this room know, the ranking member and I, along with 
Congresswoman Schmidt and several other members, had the 
opportunity to visit the region at the beginning of this month. 
And it was really a great trip. I believe that I can speak for 
our entire delegation when I say that we were impressed by the 
warm reception and the generous hospitality that we received in 
each of the four Central Asian republics that we visited: 
Kazakhstan, the Kyrgyz Republic, Tajikistan, and Uzbekistan.
    And, Mr. Secretary, before I begin I would like to commend 
our Ambassadors and the Embassy staff in each of those 
countries. They were really great, and I am pleased that we 
have such dedicated people in that part of the world. We really 
appreciate their support.
    The United States has a strategic interest in the 
development of sovereign, democratic, economically free states 
in Central Asia. U.S. engagement with all five countries in the 
region must not simply emphasize these three co-equal values. 
Instead, we should develop a dialogue with the people and the 
leaders of Central Asia along more practical lines. We must 
emphasize that, in the American experience, sovereignty, 
economic freedom, and democracy are not simply moral values, 
but essential components of stability and prosperity, both of 
which are so highly prized throughout that region.
    Since 2001, the average American has seen Central Asia in 
the context of neighboring Afghanistan and the ongoing 
international effort to provide a foundation for stability and 
development in that country. The development that I have just 
described will enhance the ability and willingness of Central 
Asian countries to continue to support the stability and 
development of Afghanistan.
    The United States and the five Central Asian republics 
share a common strategic goal of a stable and prosperous 
Afghanistan. This common goal has led to efficient cooperation 
on initiatives such as the northern distribution network, and 
given that our common goal of a stable and prosperous 
Afghanistan has not been achieved and will not be achieved in 
the next couple of years, such cooperation beyond 2014 is 
extremely important.
    However, our focus today is Central Asia itself. Given the 
region's location at the heart of the Eurasian landmass, 
stability in Central Asia is just as, if not more important, 
than stability in Afghanistan. Central Asia sits at a 
crossroads between Europe, the Middle East, and the far east 
and the Indian subcontinent. This unique geographic location 
ties Central Asia into important trade networks such as the 
Silk Road, facilitating the diverse actions that were a key 
component in the development of the region's rich, diverse 
cultures.
    However, history has shown that powers from around the 
Eurasian landmass are often not content to develop trade links 
with this central region, and instead seek to exercise greater 
and more direct control. We must remember that all five Central 
Asian republics achieved their independence with the fall of 
the Soviet Union only 21 years ago. U.S. support for the 
sovereignty of the Central Asian republics immediately followed 
their independence, as the United States became the first 
country to recognize several of the young republics with 
Secretary James Baker's visit to the region over Christmas of 
1991. I look forward to hearing how the Department of State is 
building on this history of support.
    Stability and prosperity, as I mentioned in the beginning 
of my remarks, are highly valued throughout Central Asia, 
especially by leaders and political elites. The prioritization 
of these values is often cited as the reason that democracy and 
human rights have lagged behind in this region.
    In our engagement with Central Asian leaders, and their 
political leaders, the executive and legislative branches of 
the United States Government must work to correct this 
misconception. A democratic society that respects fundamental 
human rights is not simply a moral value, but a lasting 
foundation for stability and prosperity. Such a society ensures 
stability by protecting the rights of all citizens, including 
ethnic and religious minorities, and by providing a forum for 
discussion and dissent through a free media and an open 
political process. Such a society also fosters prosperity by 
providing a transparent legal environment in which one can 
build a successful business. It also helps by creating a 
culture of creativity that values innovation.
    I was pleasantly surprised by the willingness of the 
leaders in both the executive and legislative branches from 
around Central Asia to discuss these issues. Such engagement 
must continue as part of a broader U.S. partnership with all 
five countries in that region.
    This emphasis on the sovereignty and democratic development 
of the Central Asian republics should not be interpreted as 
suggesting that the United States has an interest in 
discouraging the powers that border Central Asia from 
establishing strong ties with the region. Trade, particularly 
between the neighboring states, can and should have a 
stabilizing effect on the relations between these countries.
    As a result, I hope you will discuss, Mr. Ambassador--or 
Mr. Secretary--Mr. State--Secretary--Assistant Secretary Robert 
Blake. I am having a hell of a time with that. [Laughter.]
    You will discuss the New Silk Road initiative, which seeks 
to develop strong modern trade links between the Central Asian 
republics and their neighbors. Regional cooperation will be 
essential to the continued development of Central Asia's vast 
energy resources. A modern network of pipelines is slowly 
developing to supplement the existing Soviet-built network that 
runs north to Russia. Links now run east to China, and the 
planned Turkmenistan-Afghanistan-Pakistan-India, or TAPI, 
pipeline will provide a link south to the subcontinent. While 
the success of TAPI remains highly dependent on the security 
situation in Afghanistan, the missing link remains a trans-
Caspian pipeline that will provide a link to European markets 
and provide a more diversified demand for Central Asian 
resources.
    Given the Secretary's emphasis on economic statecraft, I am 
eager to hear what the Department is doing to assist U.S. 
companies that seek to invest in Central Asia. I understand 
that a number of major U.S. companies are operating in that 
region, and we talked to some of them, and that this investment 
is not limited to the energy sector. Despite the potential that 
the region's developing markets and natural resources present, 
significant barriers exist. Negotiations to remove these 
barriers must be dealt with if more business and industry are 
to locate there, so I am looking forward to hearing what the 
administration is doing to support the applications of 
Kazakhstan and Tajikistan to the World Trade Organization.
    I realize that these two countries represent two very 
different levels of economic development, and that as a result 
Kazakhstan is much closer to joining the WTO. However, we 
should support and be willing to make the reforms that are 
required to join this organization and help those countries do 
that.
    In addition, I will note that with Kazakhstan approaching 
WTO accession, my colleagues and I in Congress must act to 
eliminate Jackson-Vanik for Kazakhstan, so that the American 
companies can continue to invest in the country's growing 
economy. I believe that the presence of U.S. countries in the 
region will further develop the prosperous liberal economies in 
those countries. When a major U.S. company enters a developing 
market, either by itself or through a joint venture with a 
local company, it brings qualities of innovation and corporate 
responsibility, which create economic growth.
    U.S. engagement in Central Asia is unique. The United 
States does not seek to establish spheres of influence in the 
region, or to secure long-term control of resources. Instead, 
we seek to form strong partnerships through which we can share 
our own experiences and resources, which can help support the 
stability and prosperity of all five Central Asian republics.
    I want to add one more thing, and that is that the 
delegation that we took was the largest delegation that has 
visited that region for a long, long time. And as a result, we 
were welcomed with open arms in every one of those countries. 
So Mr. Secretary, we really appreciate you insisting that we 
go.
    And one of the things that really surprised me was that 
when you visit these countries, many times you expect them to 
be backward, with dirt roads and old-style buildings. Many of 
these capitals were absolutely beautiful, and they are 
remarkable in their ability to grow so fast after the 21 years 
since the fall of the Soviet Union. So I just want to say 
publicly that we really appreciate the hospitality that we 
received from all of those countries, and I for one hope to go 
back there very soon again.
    I now yield to Mr. Meeks.
    [The prepared statement of Mr. Burton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Meeks. I want to thank you, Chairman Burton, for 
holding this hearing, which is very timely, coming right after, 
as you properly described, a fascinating trip to the region 
over the July 4th recess. It was a trip that was very timely.
    Let me first start out, though, by thanking our generous 
hosts in the Central Asian republics. We were able to meet with 
the Presidents of Kazakhstan and Kyrgyzstan and Tajikistan and 
Uzbekistan, and had very frank and productive exchanges about 
the topic at hand today, and U.S. engagement in Central Asia. 
And we found the people there to be very warm, and very open to 
us coming as Members of the United States Congress. In fact, 
many wondered, just as the chairman had indicated, since there 
had not been a large delegation there before, why we were not 
traveling there even more, and looking forward to our next 
visit there.
    You know, U.S. relations with Central Asia are frequently 
perceived in the context of the stabilization of Afghanistan, 
but I believe that a broader and regional policy agenda is 
merited and well-advised after coming back from this trip.
    Central Asia plays a key role in establishing the desired 
outcome in Afghanistan, but U.S. policy toward the region 
should not just be a means to this goal. It should engage the 
five republics as responsible members of the international 
community and seek to consolidate democratic gains, continue to 
open markets for mutual trade and investment, and strengthen 
human rights and the rule of law.
    Any region that borders Russia, China, Iran, Afghanistan 
and Pakistan is bound to be at the center of many currents, and 
I am particularly interested in hearing from you, Mr. 
Secretary, today, your assessments of the five republics' 
ability to navigate between the competing interests and 
influence of Russia, China, Turkey, the United States and 
Europe.
    When we talked to several of them, you could see that they 
wanted to talk to us, but they also had to talk to the 
Russians, and they wanted to hear from the Chinese. And so I 
would love to hear your perspective of that.
    Also during our trip, the topic of China's growing 
influence in Central Asia frequently came up. And as we have 
seen in other parts of the world, China's engagement strategy 
focuses on extractive industries, and access to energy 
resources in particular, but very rarely on democratic 
advancement and human rights. And I look forward to exploring 
China's increased role in Central Asia with our witnesses 
today.
    In Afghanistan, security responsibilities will transition 
to the Afghan Security Forces in 2014, and this could have 
significant ramifications for Central Asia. I am interested in 
hearing how this announcement has affected the Central Asian 
republics, and how they are preparing, or should be, for this 
event, and whether other countries are looking to increase 
their presence as a result of this timeline.
    We talked in Manas about the transit station, and whether 
or not once the lease expires, what will happen there. So I 
don't know whether we have made some decisions there.
    It is evident to me, after visiting the region, that the 
countries of Central Asia have come very far in a very short 
period of time. Our first stop in Kazakhstan felt like a visit 
to--as Mr. Burton said, it was almost a futuristic vision, with 
dazzling architecture and complete with a modern interpretation 
of the White House. In fact, when we landed it was dark, and 
like Mr. Burton I was expecting some dirt roads or something, 
and all of a sudden I saw these glass buildings with monitors 
and TVs flashing. I almost thought I was in Times Square in 
Manhattan.
    It was just amazing to me. It is not what most people would 
have expected, but I found it to be a fascinating symbol of 
extraordinary efforts that these countries have undertaken to 
solidify their independence and build governance institutions 
following their sudden independence from the Soviet Union in 
1991.
    Now, they are only 21 years old, and we know our country is 
236 years old and we are still striving to be a more perfect 
nation. So we know that there are still things that have to be 
done. There are still things that we need to work out.
    So that being said, we have got to talk about the good, and 
also we have got to talk about some things that we have to 
think about. Because still, we did hear some questions about 
authoritarian rule, about ethnic tensions, and about unevenly 
distributed revenues from energy riches. These should be 
important elements in our conversation with the Central Asian 
republics, as the consequences of repressed populations, poor 
human rights standards, and failed governance structures are 
all too visible in neighboring Afghanistan, and I would hope 
that some of these countries can be examples for what 
Afghanistan can be once we have the governance down and in the 
visual and moving. So I think that is very important.
    I would also like to publicly commend the Central Asian 
countries that participate in the Northern Distribution 
Network, the NDN. As other supply routes remain unreliable or 
subject to extraordinary transit fees, it is a relief to know 
that we have real friends in the region that we can rely on.
    Mr. Burton talked about the New Silk Road. Here is a great 
opportunity, again, for trade and commerce to flow, which I 
think is tremendously important. I join with him in that those 
countries, most of them came to us and said they want to trade 
with the United States. They want to make sure that we have a 
better relationship. We need to remove obstacles where there 
are obstacles, like Jackson-Vanik which is old and antiquated.
    So I think that is important, and as we look, as Russia now 
moves into the WTO, you know that Kazakhstan had the customs 
union, so I would like to hear from you the success or the 
failure of the customs union that Kazakhstan has engaged in 
with Russia, and where we move from there.
    But I conclude just by saying that, Mr. Chairman, you led a 
fantastic trip that I think was a bipartisan trip, and all of 
us could not agree more. It was timely, the fact that we got a 
chance to share the Fourth of July with many of our troops that 
were there in Manas was fantastic. What we learned, and the 
relationship that I think we can have with those countries, can 
only get better. So I thank you for this hearing, and I thank 
you for the timely trip to Central Asia.
    And I yield back.
    Mr. Burton. Thank you, Mr. Meeks. Another member that went 
with us on the trip, Ms. Schmidt.
    Ms. Schmidt. Thank you. And I first want to thank Chairman 
Burton for his distinguished leadership and wise decision to 
review U.S. involvement in Central Asia. It truly was a dynamic 
trip.
    Given the importance of this region as the economic, 
cultural and geographical intersection between Europe, Russia, 
China, India, and Iran, it is in my opinion imperative that the 
United States reach out and engage those nations comprising 
Central Asia.
    Recently, as was mentioned, with Chairman Burton and 
Ranking Member Meeks and several other colleagues, I visited 
Kazakhstan, the Kyrgyz Republic, Tajikistan and Uzbekistan. 
While visiting these countries, we had the opportunity to meet 
and speak with many high-ranking government officials. We 
gained firsthand knowledge of their successes, their failures, 
their challenges, their goals, their hopes, and their desires.
    What I came away with was this: It is in the United States' 
short-term and long-term interests to develop and implement a 
well-crafted plan for strategic involvement in the countries of 
Central Asia. In the short term, our engagement with these 
countries will help secure for us continued accessibility to 
transportation routes needed for the so-called Northern 
Distribution Network to and from Afghanistan, technically known 
as the Silk Road.
    In the long run, it is our engagement with these countries 
that could help bring needed stabilization to the region, 
through the development of the New Silk Road vision in which 
Central Asia becomes a commercial hub linking Europe, the 
Middle East, and South Asia. If successful, such an initiative 
will not only create jobs, it will contribute to the 
elimination of stateless regions so prized by terrorists as 
training grounds and safe havens.
    Also looking at Central Asia from a long-term perspective, 
it is certainly in our economic and security interests to help 
those countries of this region develop their own energy 
resources. With an estimate of 3 percent of the world's oil 
reserves, and an estimated 6 percent of the world's gas 
reserves, Kazakhstan, Turkmenistan and Uzbekistan are 
attracting a lot of interest from countries such as Russia, 
China, and India, as well as the European Union.
    With Russia becoming more antagonistic and exerting more 
influence on its neighbors in Central Asia and China, 
aggressively expanding its economic footprint in the region, it 
is absolutely necessary that we, too, become more engaged in 
the area. Assisting the countries of Central Asia expand their 
energy production might benefit our friends in Europe, India, 
Japan and South Korea by helping them become less reliant on 
oil from hostile regimes such as Iran and Algeria, which in 
turn will contribute to our own security interests.
    At the same time, we cannot overlook the many human and 
civil rights violations that are alleged to be occurring in 
Central Asia, particularly in Uzbekistan and Tajikistan, both 
of which have disappointing records in such areas as political 
and religious freedoms. While engaging these countries in 
pursuit of security interests, we must also influence them to 
improve their human and civil rights records.
    So it is with great interest that I look forward to the 
testimony of our witness, and hope to learn some of the 
following. One, what is our short and long term interests in 
this region? Two, what form or forms of engagement our 
involvement in Central Asia should take. And three, what can we 
do to encourage the countries of Central Asia to improve their 
records on human and civil rights.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Burton. Thank you, Ms. Schmidt. Mr. Engel?
    Mr. Engel. Thank you very much, Mr. Chairman. You know, I 
have served on this committee for a long time, and one of the 
things that I really love about this committee is, I have 
listened to your statement, and Mr. Meeks' and Ms. Schmidt's, 
and I agree with everything all of you have said. And that is 
the bipartisan cooperation that we have had on this committee, 
and that we have had certainly on this subcommittee with you as 
chair, Mr. Chairman. And as I have said before, we are going to 
miss you when you are no longer around, but we are going to 
take advantage of you while you are still here. And the same 
goes for my feeling about Ms. Schmidt, as well.
    You could say that Central Asia is the crossroads of the 
world. It is obviously important. Central Asia is obviously 
important. It is near India, near Iran, near Afghanistan, near 
so many countries that are so important to us in our foreign 
policy.
    I remember in the days when the Soviet Union fell--and I 
remember having this discussion with you, Mr. Chairman--many of 
us thought that the republics of the former Soviet Union were 
republics that the United States needed to quickly involve 
ourselves with, quickly become engaged with. Because we all 
knew that, one day, Russia would regroup itself and make it 
virtually impossible for us to try to fulfill our foreign 
policy objectives without their antagonism. We saw that in 
Eastern Europe. I mean, all the countries that are now former 
Soviet Bloc countries, and even countries--for instance, the 
Baltic States--that were once part of the Soviet Union, are now 
NATO nations. And if we had waited until now, who of us would 
think that that would be possible again? So it was important to 
move quickly.
    We didn't move as quickly in Central Asia as, perhaps, we 
should, but I think there are still many, many opportunities 
for us to cooperate with those countries. And, as was pointed 
out, we have to be careful about repressive regimes. We have to 
be careful about some of the things we see. But I think it is 
in our strategic interest, frankly, to have relations, and good 
relations, with all the countries of Central Asia, not only for 
Afghanistan but for all our policy objectives.
    We think it is important, of course, to contain Iran. It is 
too bad that Russia becomes more antagonistic by the day. One 
can only see what Russia just did in the Security Council by 
vetoing the resolution against Syria, to contain Syria's 
murdering of its own people. And so this region of the world is 
of very strategic importance, whether it is trade, whether it 
is routing, whether it is just geopolitical things. It is very, 
very important.
    And finally, I wanted to tell the Secretary, I know, Mr. 
Secretary, of your good work. I look forward to hearing from 
you, and to hearing what you think. But thank you, those of you 
who do the work that you do. I am always amazed at how much you 
accomplish with such little resources. And if I had my 
druthers, you would have a lot more resources, because I think 
we make a terrible mistake as a country by not--and it has 
happened through multiple administrations, on both sides of the 
aisle--by not appropriating enough money to take care of what 
are U.S. essential interests throughout the world. So, thank 
you very much for what you do. We really appreciate it.
    And finally, I want to say this. Although I did not go on 
the recent trip that the three of you spoke about, I think it 
is very commendable, Mr. Chairman, that you had such a trip. 
Because this is a place of the world where it is very easy to 
pass by. A lot of these trips are, people want to go to exotic 
places, or they want to go to Paris, or places like that. But 
no one can accuse you of going on a junket to Central Asia. I 
know the newspapers will sometimes try, but it is not a junket. 
It is serious policy. It is serious work on the Foreign Affairs 
Committee, and I am glad that you have done it.
    And I thank you, and I yield back the balance of my time.
    Mr. Burton. Let me just say this, for those who are 
interested in junkets that we go on. We went to six countries 
in 9 days, and we lived out of our suitcases. We had five to 
six or seven meetings a day with very important people. And 
Kazakhstan is more than halfway around the world from here, and 
I just want you to know that Members of Congress that go on 
these kinds of trips really work. It was very enjoyable. We met 
a lot of very wonderful people. And I think meeting those 
people, and getting to know some of the people, and letting 
them get to know us, is very, very important. Because there are 
not misunderstandings down the road, because you can remember 
the guy you talked to, and what kind of a person he was. It 
makes a big, big difference.
    Let us see. Mr. Marino, I think you are next.
    Mr. Marino. I have no opening statement.
    Mr. Burton. Thank you. Mr. Marino makes the best--he and 
his wife make the best chocolate topping for ice cream in the 
whole world. I just thought I would put that in as a 
commercial, because I wanted to tell you. He gave me some of 
that, and I can't tell you how wonderful it is.
    Mr. Rohrabacher?
    Mr. Rohrabacher. I have one question. Where do I get the 
topping for this ice cream that you were talking about, Mr. 
Chairman?
    I will wait and hear the testimony. Thank you.
    Mr. Burton. Well, thank you very much. Mr. Poe, did you 
have an opening statement, sir?
    Mr. Poe. Of course.
    Mr. Burton. Okay. Mr. Poe, one of the more eloquent Members 
of Congress.
    Mr. Poe. Well, I wouldn't say that. But I do have a comment 
or two. But thank you for the time, Mr. Chairman. What happens 
in Afghanistan matters, of course, to us and to Central Asia. 
If terrorists are allowed to wreak havoc, that will not only 
lead to instability in Kabul, but in countries throughout that 
whole region.
    Central Asian nations understand this to some extent. The 
Northern Distribution Network, established in 2009, travels 
through a number of Central Asian countries to deliver the 
supplies our troops need in Afghanistan. Even the Russians get 
this. They allow us to transport supplies through their 
territory, because they don't want terrorists in their 
homeland.
    But Pakistan, in my opinion, does not seem to understand or 
care about stability in Afghanistan. For the last 7 months, 
Pakistan has shut down the southern supply route. Even though 
the most important terrorist safe havens are in the tribal 
areas of Pakistan, Islamabad refuses to go after them. Instead 
of joining us and eliminating the threat, to me they give the 
terrorists a heads-up when we are coming. History has proven 
they have done this twice.
    The instability is already spreading. We now have evidence 
of a trans-national network of terrorists reaching from 
Pakistan into Central Asia. That is disturbing. We have to get 
serious about Pakistan. Here in the House, I think we took a 
good step in that direction last week when they passed an 
amendment, the House passed an amendment I offered to the 
Department of Defense appropriations bill to cut aid to 
Pakistan in half. It passed by voice vote with no dissenting 
voice vote on the floor.
    But we need to do more. In 2004, we awarded Pakistan Major 
Non-NATO Ally status, and that will be the central concern and 
questions I have today. This gave Pakistan priority delivery of 
defense material, an expedited arms sale process, and access to 
U.S. loan guarantee programs. Since then, Pakistan has proven 
to be no friend of the United States, and my concern is whether 
or not Pakistan should keep this Non-NATO Ally status.
    It is worth a discussion. Pakistan has shut down our supply 
route into Afghanistan. They have tipped off terrorists. They 
have taken over $20 billion of American money. It is time we 
update our policy to match the situation on the ground. The 
longer we keep the status quo, the greater risk of instability 
in Central Asia. I do not believe Pakistan is a friend of the 
United States, and really not a friend of Central Asia. We 
don't need to pay Pakistan to betray us; they seem to do that 
for free, whether we pay them or not.
    I yield back, Mr. Chairman. Thank you for the time.
    Mr. Burton. Thank you.
    Mr. Rohrabacher. Mr. Chairman?
    Mr. Burton. Mr. Rohrabacher?
    Mr. Rohrabacher. I would like to associate myself with the 
remarks of my distinguished colleague, Judge Poe.
    Mr. Burton. So ordered. Assistant Secretary Robert Blake 
has been the Assistant Secretary for South and Central Asian 
Affairs at the State Department since May 2009. Prior to his 
time as Assistant Secretary, he served as Ambassador to Sri 
Lanka and Maldives. Ambassador Blake joined the Foreign Service 
in 1985. He has served in a variety of roles in the State 
Department, in Washington and abroad, including as Deputy Chief 
of Mission at the U.S. Mission in New Delhi, India.
    And he is a hard worker, and a guy who really pushes 
Members of Congress to get over to the area where he feels 
there is a lot of concern. And I have to tell you that we 
really appreciate you being so insistent that we go, because it 
was an extraordinary trip. I have been all over Europe and 
Eurasia over the past couple of years, and I want you to know, 
this was the most enlightening and informative trip that we 
have taken. And they really were very receptive to us, and I 
think we made a lot of inroads with the people in that part of 
the world. So Mr. Secretary, you are recognized.

     STATEMENT OF THE HONORABLE ROBERT O. BLAKE, ASSISTANT 
  SECRETARY, BUREAU OF CENTRAL AND SOUTH ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Blake. Well, thank you very much, Mr. Chairman, for 
your decision to hold this hearing today, but more importantly 
for your critical engagement in Central Asia. As you said, your 
decision to lead what was one of the largest ever congressional 
delegations to Central Asia, the length of time you spent 
there, and the very large number of high level meetings that 
you had really did help to advance our relations, and we really 
deeply appreciate the messages that you sent to all of our 
friends in Central Asia. Not just the supportive messages, but 
also the tough messages on the need for greater respect for 
human rights, all of which were very consistent with the 
messages that we have been conveying to our friends there.
    And as you saw, the very warm reception you got, the very 
high level reception you got, testifies to the eagerness of the 
Central Asians to have more engagement with the United States, 
I think in part to balance the interests that they are 
receiving from Russia and China and many other countries that 
you and the other distinguished members of the panel have 
talked about.
    Mr. Chairman, I have a long statement that, with your 
permission, I would like to submit for the record.
    Mr. Burton. Without objection.
    Mr. Blake. I would like to briefly respond to some of the 
things that you and some of the members said, and then I will 
just have a very quick country-by-country summation of some of 
the things that we are working on. And then I will be glad to 
take your questions.
    Mr. Chairman, as I think you know, we have really made an 
effort during the Obama administration to dramatically increase 
our engagement with the countries of Central Asia. That has 
primarily been through a series of annual consultations that I 
chair with the foreign ministers, typically, of each of these 
countries on an annual basis, and then we have 6-month reviews. 
These are really efforts to find very practical ways forward on 
all of the numerous common interests we have, but also on many 
of the differences that we have, to try to resolve those.
    And let me just briefly talk about some of those, since you 
mentioned them. Obviously, we are working very closely with 
Central Asia to support a stable, prosperous and secure 
Afghanistan. But it is not just to accomplish that objective. 
As you and other distinguished members pointed out, Central 
Asia is located in one of the most strategically important 
parts of the world, located as it is between Russia, China, 
Europe, Iran, Afghanistan, Pakistan and India, some of our most 
important partners in the world. So we are working very closely 
together with them on Afghanistan, not just to help stability 
and the transition there, but we have appreciated very much 
their support for the Northern Distribution Network, which has 
been built up over these last 3 years. Including, more recently 
we have received their support for reverse transit of goods, as 
our troops now begin to move out of Afghanistan.
    Likewise, I think all of the Central Asian countries have 
been very supportive and have embraced the New Silk Road 
vision, and they understand that they stand to benefit a great 
deal from this. But there is still a lot of work to be done. 
And then, also, on the security front we are working very 
closely with them, both on the counterterrorism challenges that 
they face, that many of you mentioned. The Islamic Movement of 
Uzbekistan, and several others that are based in Pakistan, 
still pose very serious threats to these countries, threats 
that we follow very, very closely, and threats that we are 
working with these governments to try to help prevent through 
programs on border security, counternarcotics, and a variety of 
other things.
    Many of you mentioned business. We have made it a priority 
to try to support American business, not just because we want 
to create American jobs, but also because we believe there are 
some quite significant opportunities, particularly in 
Kazakhstan, but also in Turkmenistan and Uzbekistan, and to a 
lesser extent in these other countries. I personally have led 
several trade missions that have gone with me as part of these 
annual consultations that I have had, and there has been really 
striking interest. The last time we had one in Turkmenistan, 
more than 30 companies went with me. And again, I think there 
is quite a lot of interest, and we will continue to do what we 
can. But it is also incumbent upon all these countries to do 
their part to open up their markets, and to make it a more 
accessible and more friendly business environment.
    We are also strongly supporting the WTO accession efforts 
that you and several others mentioned, particularly in 
Kazakhstan and Tajikistan. Kyrgyzstan already is a member. And 
we welcome your support for the repeal of Jackson-Vanik that 
you mentioned. We appreciate that.
    Last but not least, Mr. Chairman, you mentioned how 
democracy is essential to the stability and prosperity of these 
countries, and every country. And I think that is a very, very 
important message that we have consistently promoted in Central 
Asia. We are working to, first, support civil society in these 
countries, but we also have a very frank and open dialogue with 
the governments about the changes that we think need to be made 
in the areas of allowing more freedom for civil society, 
allowing freedoms of the press, allowing greater freedom of 
worship. And again, these are things they shouldn't do because 
of the United States, but these are things that are in their 
own interests, and that are going to enhance stability and 
enhance prosperity in their region, and help them attract more 
business. And I think we have been particularly pleased with 
the democratic transition which took place in Kyrgyzstan, which 
we devoted a lot of our resources to, and which we continue to 
strongly support.
    Let me just briefly now, Mr. Chairman, talk about some of 
the country-specific issues, and then I will be glad to take 
some of your questions.
    In Kazakhstan, Secretary Clinton and Foreign Minister 
Kazykhanov elevated this year our engagement to the level of a 
strategic partnership dialogue, in recognition of the expansion 
of the depth and breadth of our cooperation with Kazakhstan. 
Kazakhstan is considered to have the best investment climate in 
Central Asia, as evidenced by the numerous international and 
American companies that utilize Kazakhstan as a regional 
headquarters. It also has supported expanded trade in the 
region, and has invested in the Central Asian Regional Economic 
Cooperation infrastructure network. We strongly support 
Kazakhstan's bid to join the WTO, and look forward to its 
anticipated accession.
    While Kazakhstan has made progress in fulfilling the 
promise of their chairmanship of the OSCE, we will continue to 
work with them toward our mutual goal of a full democratic 
system and strong civil society that work together to protect 
internationally recognized human rights. As part of our 
strategic partnership dialogue, we also regularly host forums 
on democracy and human rights with local NGOs, the only country 
in the region that we are so far able to do that with.
    Turning to Kyrgyzstan, the United States has made support 
for Kyrgyzstan's democracy a cornerstone of our Central Asia 
strategy. We remain committed to the people of Kyrgyzstan, as 
they work to develop democratic institutions and practices. A 
central goal of our assistance to Kyrgyzstan is consolidation 
of that country's democratic progress, and the hard work of the 
government and the voters in Kyrgyzstan has really enabled 
great progress. As a result of the 2011 elections, the people 
of Kyrgyzstan accomplished a peaceful and democratic transfer 
of Presidential power, something that has never happened before 
in Central Asia. This is a profound change that affirms the 
rights and expectations of ordinary citizens and shapes our 
long-term view of the close partnership between our two 
countries.
    But in order to fully realize and sustain its democratic 
goals, we continue to urge Kyrgyzstan to work actively on 
national reconciliation. Meaningful democracy requires that the 
rights of all Kyrgyzstan's citizens be respected and upheld 
fully through the justice and law enforcement system, as 
required by Kyrgyzstan's constitution.
    Next month, I will lead the U.S. delegation to the annual 
bilateral consultation with Kyrgyzstan in Bishkek, and continue 
our engagement on the full range of our mutual interests, 
including expressing our continued appreciation for 
Kyrgyzstan's hosting of the Manas Transit Center.
    Turkmenistan has supported Afghanistan through humanitarian 
aid, and by the construction of rail and energy infrastructure 
that will more fully integrate Afghanistan into the region. The 
recent signing of gas sales and purchase agreements between 
Turkmenistan, Pakistan and India enables the Turkmenistan/
Afghanistan/Pakistan/India gas pipeline to move now to the 
commercial phase. This project is one example of the potential 
Turkmenistan has to be a leader in the economic prosperity of 
the region, and we continue to encourage Turkmenistan to build 
clear and transparent mechanisms to spur greater investment, to 
open up opportunities for American companies.
    In order to realize its full potential, Turkmenistan must 
also take significant steps to fulfill its international 
obligations on human rights. The United States consistently 
raises concerns about respect for human rights at every 
available opportunity, and we have offered assistance to help 
advance space for civil society and build a democratic system.
    Tajikistan has made accession to the WTO a key priority in 
our bilateral relationship, one we strongly support. It has 
also been a strong partner in efforts to help Afghanistan and 
catalyze regional integration. We recognize that energy issues 
and water management are sources of tension between Tajikistan 
and Uzbekistan, and encourage both of these friends to resolve 
their differences through dialogue.
    Regarding the Roghun Dam project, which I'm sure came up in 
your conversations, Mr. Chairman, we continue to encourage the 
Government of Tajikistan to fully cooperate with the World 
Bank, and not to move forward with the construction or river 
diversion for the dam until the completion of the World Bank's 
feasibility studies.
    The United States is concerned about Tajikistan's 
continuing efforts to limit human rights, including religious 
freedom and media freedoms. We continue to encourage Tajikistan 
to protect religious freedom, respect media freedom, and 
refrain from interference in the media.
    Lastly, in Uzbekistan, I will lead the U.S. delegation 
there to this year's annual bilateral consultations. Uzbekistan 
has been a critical part of regional support for Afghanistan, 
building a rail line connection between Afghanistan and Asia 
and providing electricity that benefits the people of 
Afghanistan. We also appreciate Uzbekistan's central role in 
the Northern Distribution Network.
    During our upcoming consultations, we will work to make 
progress on creating the business environment necessary to 
increase economic investment by U.S. firms, boost education and 
cultural exchanges, but also address ongoing human rights 
concerns and strengthen our security and defense cooperation. 
We continue to urge the Government of Uzbekistan to improve its 
record on human rights, and we continually advocate for those 
who seek peaceful democratic reforms.
    In conclusion, Mr. Chairman, we are working toward a future 
in which the United States and the countries of Central Asia 
are partners for peace, security, economic development, 
democracy and prosperity. We envision a region where goods and 
services flow easily and efficiently between the Central Asian 
countries, Afghanistan, and South Asia. Mr. Chairman, changes 
occur slowly in Central Asia, but our consistent engagement 
will achieve results in this strategically important region.
    So again, let me thank you and all the members of this 
committee for your engagement, and we appreciate very much your 
interest. Thank you.
    [The prepared statement of Mr. Blake follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you, Mr. Secretary. We really appreciate 
once again your insistence that we go. The only thing I regret 
was that you weren't able to go with us because you had to go 
to what, a NATO meeting?
    Mr. Blake. A family obligation, yes.
    Mr. Burton. Was it a family meeting, or NATO?
    Mr. Blake. Family.
    Mr. Burton. Oh, a family meeting. Well, I guess that is 
more important.
    One of the things that concerns me is, in the Middle East, 
Iran continues to be recalcitrant when it comes to their 
nuclear weapons program, and Kazakhstan has opened a dialogue 
with Iran. And I am concerned about whether or not anybody can 
change Iran's mind on their nuclear development program. With 
the problems in Syria and the problems in Egypt and the 
problems in the rest of that part of the world, Libya, Tunisia, 
Yemen, it makes you wonder if there is going to be a major 
conflagration of war over there in the not too distant future, 
and we don't want that to happen.
    So, what are the prospects of countries like Kazakhstan in 
making an impact on Iran's nuclear weapons program, or nuclear 
development program?
    Mr. Blake. Well, Mr. Chairman, as you know, we are engaged 
with our P5+1 allies in a very important negotiation with Iran, 
and I must say that I think countries like Kazakhstan can have 
an impact. Kazakhstan, as you know, is the first country in the 
former Soviet space to voluntarily renounce nuclear weapons, 
and has been working ever since to completely rid itself of all 
of its weapons of mass destruction program.
    And it has been a real leader, and a real example for the 
rest of the world in that regard, so I think that its quiet 
dialogue with Iran on this issue can have an impact, and we 
very much appreciate the steps that they have taken in that 
regard.
    Mr. Burton. I presume that when you talk to the leaders in 
Kazakhstan and that whole region, you stress the importance of 
them.
    Mr. Blake. We do. We very much do.
    Mr. Burton. Okay. The other thing that was of concern to me 
is, we met with the commander of the Manas Transit Center, and 
we talked about the extension of that, because we are removing 
our troops from Afghanistan in 2014. The President was adamant 
that that base be closed, and we tried to find out if there was 
any wiggle room so that we could keep that transit center 
there, but he was very, very firm in saying that it is going to 
be shut down, closed. So we talked to some of the other 
countries over there, or at least discussed the possibility of 
a relocation of that transit center in one of the other 
countries that we visited.
    Have you discussed that with anybody over there? What are 
the prospects of us--because with Afghanistan being turned over 
to the Afghans to defend themselves, there is still going to be 
a need for support from the surrounding area, and I presume we 
are going to have to have some kind of a residual force of 
military over there to work with the Afghans during this 
transition period. So, what are the prospects of having another 
transit center somewhere else?
    Mr. Blake. Mr. Chairman, the answer to that question starts 
with Afghanistan. As you know, in May we signed a strategic 
partnership agreement with Afghanistan. The next major part of 
that negotiation will be the negotiation of a bilateral 
security agreement. Probably we will begin sometime this fall, 
and the terms of that agreement must be concluded within a 
year.
    That agreement will set forth the parameters of what our 
security engagement will be in Afghanistan post-2014. That is, 
at the end of the transition process, how many troops we are 
likely to have on the ground, and what exactly that residual 
force will be that you mentioned.
    Based on that, we will then have a much clearer sense of 
what kind of facilities we are going to need, in Central Asia 
and elsewhere. But as you know, we have already begun the 
conversation with President Atambaev. We have expressed our 
deep appreciation to the Government of Kyrgyzstan for their 
continued hosting of the Manas Transit Center. As you know, the 
existing contract runs through the middle of 2014, so we have a 
little bit of time, still.
    If I might just correct you slightly, he hasn't said that 
the Manas Transit Center needs to be closed. He said that it 
has to be civilianized, and that the military component----
    Mr. Burton. Why don't you define that for us?
    Mr. Blake. Well, that is, that the military component of it 
needs to be removed. In other words, he thinks that there is 
still a role for the Manas Transit Center in terms of providing 
supplies and serving as a cargo hub and so forth, and also as a 
transit center for American troops. So we have begun a 
conversation on this, but a lot of that is going to have to 
await the outcome of these bilateral security negotiations in 
Afghanistan, to see exactly how much we are going to need in 
terms of Manas and whether, as you say, there might be other 
requests for facilities elsewhere. But for now, we are going to 
be focusing mostly on Manas, and again I can't really predict.
    We are just at the beginning of this process right now, but 
I do want to stress our appreciation for the support that 
Kyrgyzstan continues to provide. And again, I think they 
understand that they derive great economic benefit from our 
presence in terms of the people that we employ and the amount 
we contribute to the GDP of Kyrgyzstan, and I think they also 
support our strategic goals in Afghanistan as well, and that is 
part of the reason they support this.
    Mr. Burton. I hope that you will keep us informed about the 
potential for another base of operations. Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman, and again, Mr. 
Secretary. Let me ask this question, which I was wondering 
while we were visiting. Typically when we visit, especially 
whether it is over in Europe or in that area, we work with 
organizations like NATO, or the EU, or OECD, or the WTO. And I 
didn't feel or see a real presence of any of these 
organizations in Central Asia. I was wondering if you could 
give me a sense of which international organizations have the 
strongest foothold in the region, as well as what would be the 
significance of Kazakhstan's OSCE chairmanship in 2010?
    Mr. Blake. Certainly. Mr. Meeks, we work with quite a 
number of international organizations and international 
financial institutions, many of whom have quite an important 
presence and role in Central Asia. Let me just tick off a few.
    I would say the first on my list would be the Asian 
Development Bank, which has been playing a very, very important 
role, particularly on this very, very important question of 
promoting regional integration. The ADB has something called 
the Central Asia Regional Economic Cooperation program, the 
CAREC program, and through that they are developing--they are 
doing a huge amount of work on transport, trade facilitation, 
and energy cooperation, particularly developing--there are six 
transport corridors, several of which will go through Central 
Asia. And I think those are going to be critically important, 
and the ADB is doing the really hard work of figuring out how 
to do things like reduce delays at border crossings, how to 
reduce corruption, how to really tackle some of the most 
difficult issues that are huge impediments right now to 
regional economic integration.
    So this work has our strong support. I actually, on one of 
my recent trips, went back through Manila just to have a day of 
consultation with them and make sure that we were all working 
on the same page, which we are. So I would like to single out 
them for particular praise.
    The U.N. also plays quite an important role. There is a 
center in Ashgabat, Turkmenistan, the Centre for Preventive 
Diplomacy, and they have played an extremely important role on 
these important water issues that, as you learned from your 
trip in Tajikistan and Uzbekistan----
    Mr. Meeks. You took my next question.
    Mr. Blake [continuing]. Are very, very vexing questions 
where there is, frankly, not a lot of dialogue between these 
countries. And so the U.N., I think, has a very important role 
to play in bringing them quietly together to try to resolve 
some of those, in addition to the important work that I 
mentioned that the World Bank is doing with Tajikistan. So I 
would like to also thank them. The U.N. has also had quite an 
important role in trying to work together on regional 
counternarcotics issues, through the U.N. Office of Drugs and 
Crime, that we are working closely with. And then, also, on 
counterterrorism issues, where I think there is a lot of room 
to do more on the regional front, to increase regional 
cooperation.
    Right now, most of it is bilateral cooperation between the 
United States and these countries, but not so much between each 
of these countries. So again, I think the U.N. has quite an 
important role to play.
    Lastly, you mentioned, Mr. Minority Chairman, the OSCE. And 
again, the OSCE has been a really important partner in terms of 
all of the democracy promotion that we are trying to do. Every 
single election, the OSCE has provided critical support in 
terms of helping to prepare for elections, providing monitors, 
and a whole host of other things that I think have been really, 
really important.
    As you mentioned, Kazakhstan was the chair of the OSCE. We 
supported their chairmanship. But as I mentioned in my opening 
remarks, we still think there is quite a lot of room left to do 
more in Kazakhstan on the democratic front, and that is 
something we bring up regularly.
    Mr. Meeks. Let me ask--and that is important. One of the 
things that I did see that was a bone of contention was the 
water and energy resources that have gone back and forth.
    Mr. Blake. Right.
    Mr. Meeks. And especially with a couple of countries that 
looked like they were going to be really at loggerheads, so 
that is why I wanted to know whether or not there was some 
international organization that was intervening, that was 
trying to work on an amicable solution.
    But given the time that I have left, with Russia going into 
the WTO--and I know Chairman Burton and I chair the Russian 
Caucus, and we have been doing certain pieces--I am interested 
in knowing your viewpoint on Russia, because I know right after 
President Putin was elected, he visited Uzbekistan and 
Kazakhstan right after his inauguration.
    So, what do you see as Russia's approach to Central Asia? 
What do you think the Kremlin's main interest is in policy, as 
far as policy priorities in the region. And as such, Kazakhstan 
and the customs union with Russia and Belarus, is that a 
benefit or a liability, in your view?
    Mr. Blake. Thank you for that important question. Mr. 
Meeks, one of the first things that we did when we started our 
engagement with Central Asia, right at the beginning in 2009, 
was that we started to work very closely with Russia. As you 
know, President Obama made this one of his real policy 
priorities, to kind of work more closely with the Russians on a 
whole host of common issues. And I think that itself opened up 
a lot of space for the Central Asians to do more with us, when 
they saw that there was this signal from the Russians 
themselves.
    Since then, I have really made it a priority on virtually 
all my trips to go through Russia, either on the way or on the 
way back, to try to be as transparent as possible with the 
Russians, to try to reassure them that we are not seeking long-
term bases in the region, we are not seeking to displace them. 
And I think the Central Asians have welcomed, as you yourself 
have experienced, a greater American engagement. And not 
necessarily at the expense of Russia, but they are glad to see 
us, and they know that we can bring a lot to the table in 
Central Asia.
    So we have looked to see how we might be able to, not only 
expand our dialogue, but also our cooperation in areas like 
counternarcotics, Afghanistan, health, where we have a lot of 
common interests in Central Asia. And I think that has been 
helpful.
    As you said, Mr. Putin has articulated a vision of a 
Eurasian union that he would like to try to establish. I think 
that countries are kind of viewing that with a certain amount 
of caution, and we haven't really seen too much in the way of 
practical steps in that regard yet. There is this customs union 
that exists.
    Our interest, we have always said, is in ensuring that 
either the union or this Eurasian union do not become vehicles 
for excluding American or other companies. We think that, on 
the contrary, that what is needed now is to open up all of 
these trade routes, to provide opportunity, not just for our 
companies but for the countries of the region. And so we have 
been very strong proponents of that idea, and the Russians have 
consistently assured us that this is not their intention, and 
so far our trade experts have agreed that the customs union is 
not going to be a threat to our companies.
    But since you mentioned Jackson-Vanik, Jackson-Vanik could 
become a problem for our companies. Because, as I am sure you 
know, once they become members of WTO, countries don't have to, 
in fact, provide the benefits that they are required to do so 
under the WTO if there is not PNTR. So the work that you are 
doing on Russia, of course, is hugely important for our 
administration right now, but I think we are then going to turn 
our attention to Central Asia.
    Mr. Burton. Thank you, Mr. Secretary. Mr. Marino, I think 
you were next.
    Mr. Marino. Thank you, Chairman. Good afternoon, Mr. 
Secretary. I apologize for my impatience, but I was a 
prosecutor for 19 years, so I have about six questions that I 
want to fire off one at a time, and please be as succinct as 
possible.
    Mr. Blake. I will try to write them down.
    Mr. Marino. You don't even have to write them down. Just be 
very succinct, and I will do one at a time.
    Mr. Blake. Okay.
    Mr. Marino. Having traveled around the world, particularly 
in the Middle East, Europe and Eurasia, I have come to 
understand the State Department's reasoning for the U.S. to 
continue foreign aid. It does not mean I totally agree with it. 
Nevertheless, I am questioned by my constituents back in the 
10th District of Pennsylvania on why we send so much money 
overseas, given our economic woes that we are in.
    What assurance can the State Department give the American 
people that the leaders in the Central Asian republics will not 
end up with millions of our dollars for their personal 
fortunes, as has happened in the past?
    Mr. Blake. Thank you very much for that important question. 
And you know, let me say two things. I think, first of all, you 
should reassure your constituents that the assistance that they 
are providing for the countries of Central Asia, first and 
foremost, is designed to provide for the security of the 
American people. The greatest threats that we face, in terms of 
our homeland security, now comes from Pakistan and the 
countries around those areas, and so it is vital that we work 
with these countries to cement their partnership in this 
counterterrorism effort that we have underway, not only in 
Afghanistan and Pakistan, but also in Central Asia.
    Secondly, as I mentioned, we are doing everything we can to 
try to promote American business, American exports, and 
American jobs, to benefit the American people. And third, we 
are trying to promote American values, American democracy and 
human rights, and the things that we have talked about. In 
terms of corruption, if you read back through my statements, my 
public statements in the region, Mr. Marino, you will see that 
I mention corruption in every single one of them, because it is 
so, so important. And we have been very, very vigilant, 
particularly on the expansion of the Northern Distribution 
Network, to ensure----
    Mr. Marino. Let me interrupt you.
    Mr. Blake [continuing]. That there is no corruption, and 
that American money is not feeding corruption.
    Mr. Marino. If we find this corruption, are we, the United 
States, going to prosecute it, or leave it up to these 
individual states, countries, that do not prosecute?
    Mr. Blake. Absolutely, we are going to prosecute. I mean, 
when you say prosecute, we don't have prosecutorial authority 
inside those countries, but we will suspend those programs, and 
we will make sure that we get to the bottom----
    Mr. Marino. Why do we not make it part of our agreement, 
when we set up these treaties, that if there is corruption, 
these people will be extradited to the United States and 
prosecuted, and we go in and take their assets?
    Mr. Blake. Well, let me just give you the example of Manas, 
because that is one of the ones that is often cited. You can 
look at all of the documents that have been negotiated on 
Manas, that are on a Web site. So you can see, in a very 
transparent way, what kind of assistance we are providing and 
how that money is being spent, and how it is being used. And 
again, we want to be very accountable to our own taxpayers, and 
we want to be sure that the money that we are spending is going 
to good use, which I believe it is.
    Mr. Marino. China and Russia are the most flagrant 
offenders of stealing our intellectual property rights, as a 
result making billions of dollars from our products and not 
paying the U.S. and other countries for them. How do we prevent 
this theft from spreading to Central Asia or the 'Stans?
    Mr. Blake. Again, IPR protection is an important part of 
everything we do, and it is sort of written into a lot of our 
trade agreements. We don't really have, yet, the kind of trade 
agreements that we have in Russia and China with the Central 
Asian countries, because, frankly, our trade relations are just 
not as advanced. Most of these countries are still relatively 
closed, and therefore the scope and volume of American 
investment and American trade is relatively small.
    But to the extent that we begin to operate in areas where 
IPR protection is important, we will do so. And certainly IPR, 
in the WTO accession process, is one of the most important 
components of that process.
    Mr. Marino. I have about 30 seconds left, so give me an 
example of how we are going to monitor the aid that we send to 
these countries, a specific example of how it is monitored, and 
it gets to the point where we are told it is going.
    Mr. Blake. Again, we are very transparent in everything 
that we do. A lot of it goes through American contractors, who 
themselves are responsible to their shareholders. And I can't 
give you one right off the top of my head, because I don't 
personally monitor these things myself. We have a whole 
assistance program that is done by USAID. But I will be glad to 
take that question and give you a few very concrete examples.
    Mr. Marino. All right. Thank you, sir.
    Mr. Blake. Thank you.
    Mr. Marino. I yield back.
    Mr. Burton. Since Mr. Engel is gone, Ms. Schmidt.
    Ms. Schmidt. Thank you. Regarding the Transit Center, when 
we were there we noticed that the airport needs some repair. 
One is a new tower, because you can't see the end of the 
runway, but the government wants to renegotiate the deal. Where 
are we with it? It is our understanding that if they don't take 
the contract that we executed by the end of the month, we pull 
back the money. Has that been resolved?
    The second, in Kazakhstan, there is shale oil exploration 
and extraction, but they don't have the technology themselves 
to do it. Is there an opportunity for U.S. firms to get 
involved?
    Three, can you talk about the development of a natural gas 
pipeline to Europe and Central Asia, and realistically how far 
along is that pipeline? And if I have time, I will ask more.
    Mr. Blake. Thank you very much. With respect to the new 
tower, one of the difficulties we face now is that there are 
competing visions for the new tower within Kyrgyzstan.
    Ms. Schmidt. That we know. Has it been resolved?
    Mr. Blake. So we have said that, in the first instance, it 
is now up to the Government of Kyrgyzstan to clarify what 
exactly they want, and so far they have not done so. But we 
have also told them, as you say, that we are on a very tight 
deadline here, and we can't delay further, so we need an answer 
by the end of the month. And so we are waiting for that. And I 
spoke with the Ambassador not too long ago----
    Ms. Schmidt. We pushed for you and got no resolution, sir. 
I am sorry.
    Mr. Blake. That is very nice. With respect to your question 
on Kazakhstan, I think there may be opportunities for shale 
gas. The U.S. Geological Survey has done quite a lot of 
important work, survey work, in Kazakhstan and in Kyrgyzstan, 
and they have made available the results of that research to 
American companies. It is really up to them, now, to determine 
whether they feel it is in their interests to try to pursue 
that cooperation. But the sort of raw data is there for them, 
if they would like to use it.
    With respect to the pipelines, as you know, our policy has 
been to support multiple export pipelines out of all of these 
countries, and I think you are referring to the Nabucco 
Pipeline----
    Ms. Schmidt. Yes.
    Mr. Blake [continuing]. Which we have, again, strongly 
supported. And our coordinator, Ambassador Morningstar, who has 
unfortunately just left us to now be Ambassador to Azerbaijan--
good for them, bad for us--has worked really hard on that, to 
try to promote that.
    Ms. Schmidt. Thank you. And finally, when we look at the 
Transit Center--and I know you said that it is going to have a 
civilian component to it--how much will we be--I think our 
concern as a delegation was our opportunity to bring troops in 
and out when it transfers into a civilian domain. How assured 
are we that we can get troops in and out of there? And if not, 
as the chairman asked and the ranking member asked, what have 
we actively pursued as alternative routes for that?
    Mr. Blake. Well, as I said earlier, we have received 
assurances from President Atambayev and his team that they have 
remained committed to the existing contract that they have, 
that runs through the middle of 2014. So we very much 
appreciate that. And now we have begun these other 
conversations about what is the future of Manas post-2014. And 
again, it is a bit hard for us to negotiate these things until 
we know what the parameters are going to be of what we are 
requesting, and so we don't yet know that, because that depends 
on what happens in Afghanistan.
    Ms. Schmidt. We are putting so much money into the tower.
    Mr. Blake. Yes.
    Ms. Schmidt. And the runway needs to be rebuilt. And 
apparently, they don't have the funds on their own to do that. 
And if they are going to ask for our economic involvement in 
it, shouldn't we have assurances that we would then be able to 
use that, in case we have a disruption in Afghanistan or in a 
neighboring community?
    Mr. Blake. Most definitely. And for that reason, we haven't 
made any commitments about the second runway, for that very 
reason.
    Ms. Schmidt. Thank you. I yield back the balance of my 
time.
    Mr. Burton. Thank you, Ms. Schmidt. Mr. Poe?
    Mr. Poe. Thank you, Mr. Chairman. I am way over here. 
Thanks for being here.
    Let me preface my questions about Pakistan with this: In my 
congressional district, we have lost 37 young men and women of 
all races and all branches of the services in the wars in Iraq 
and Afghanistan. Numerous young men and women are serving, not 
just from my district but all districts. I talk to those 
families, families that have had them wounded, that have lost 
sons and daughters. And eventually they will talk about 
Pakistan, and they are concerned that the money America gives 
Pakistan ends up in the hands of the Taliban, and the Taliban 
are trying to kill their sons and daughters. So I preface my 
remarks based on that, because they believe that. Where they 
get the source, I don't know. You have heard those allegations 
before as well.
    Pakistan. They are under the status of being a Non-NATO 
Ally since 2004. First question: Do you ever review Non-NATO 
Ally status of countries? Does the State Department do that on 
a regular basis or not?
    Mr. Blake. I should preface my own remarks by saying that I 
am actually not responsible for Pakistan. We have, as you know, 
a special representative. [Laughter.] But I can't answer. I 
don't know the answer to that question, so I will take that 
question and we will be glad to get back to you, and get you 
a----
    Mr. Poe. How about Afghanistan?
    Mr. Blake. Well, it is the same thing. As you know, the 
Major Non-NATO Ally status that was just accorded to 
Afghanistan is very, very recent.
    Mr. Poe. I understand.
    Mr. Blake. We strongly support that, obviously.
    Mr. Poe. Obviously.
    Mr. Blake. And we want to----
    Mr. Poe. Reclaiming my time, do you know of a policy of the 
countries that you do have responsibility for, are any of them 
Non-NATO Allies?
    Mr. Blake. No, they are not.
    Mr. Poe. So you are not familiar with the State 
Department's procedure, or if there is one, about review of 
that status?
    Mr. Blake. I am not. But again, I will be glad to get you 
the answer to that question?
    Mr. Poe. I would like the answer to that question.
    Mr. Blake. Certainly.
    Mr. Poe. Following up on some questions by my friend, Mr. 
Marino, aid to Pakistan. Why do we give money to Pakistan?
    Mr. Blake. As Secretary Clinton has said many, many times, 
Pakistan is a very, very important country for us, a very, very 
challenging country for us. If we are going to achieve a 
solution in Afghanistan, we have to have the cooperation of 
Pakistan. We also----
    Mr. Poe. Excuse me for interrupting. Why do we have to have 
the cooperation of Pakistan?
    Mr. Blake. Because most of the militants that are attacking 
our troops in Afghanistan, and that are also attacking the 
Afghans, are based in Pakistan. And I would add that many of 
those same militants that are based in Pakistan are attacking 
many of our friends in Central Asia.
    Mr. Poe. And they are also the concern of the Pakistanis, 
because they are causing mischief in Pakistan as well.
    Mr. Blake. Certainly. That is right. Different groups are 
targeting different people, but you are right. And so that is a 
point that we make, that it is very, very important for 
Pakistan to take action against all of these groups, because, 
to a certain extent, they are beginning to work together, and 
it is impossible to make distinctions between one group and 
another.
    Mr. Poe. Are the consequences for misuse of American aid, 
whether it is corruption, whether it is any of the unlawful 
purposes of aid going to Pakistan--I am just talking about 
them, but it applies to other countries. As Mr. Marino said, 
are there consequences for it? I mean, have there been any 
consequences for it, other than what Congress's action was last 
week, the House action?
    Go ahead.
    Mr. Blake. First of all, I would say, if Mr. Grossman, 
Ambassador Grossman were here, I would think he would dispute 
that money ends up in the hands of the Taliban. I mean, again, 
we have quite a lot of programs in place to ensure end use 
monitoring, to make sure that the money that we appropriate is 
being used for the purposes for which it has been appropriated.
    Mr. Poe. So you are saying that the money that we send to 
Pakistan is being used for the reasons that the United States--
--
    Mr. Blake. Mostly. I mean, again, I am not an expert on 
Pakistan. I can get you a separate briefing on Pakistan.
    Mr. Poe. I would appreciate that.
    Mr. Blake. We have difficulties sometimes with, again, the 
end use monitoring in some of the very secure, challenged 
places of Afghanistan, so we can't get people in there to do 
that.
    Mr. Poe. Let me just ask it this way. Are there 
consequences for countries misusing money we give them?
    Mr. Blake. Certainly.
    Mr. Poe. And what would those consequences be?
    Mr. Blake. Suspension of programs.
    Mr. Poe. All right. I ask unanimous consent that I can 
submit some more questions and get an answer in writing.
    Mr. Burton. Without objection. And I am sure that Secretary 
Blake will talk to his counterparts at the State Department and 
get answers to those questions.
    Mr. Poe. All right.
    Mr. Burton. And I would like to see them as well. Mr. 
Griffin?
    Mr. Griffin. I would like to get a copy of that as well. 
Pass them to me.
    Mr. Secretary, are you familiar with the Silk Road 
initiative, as it is called?
    Mr. Blake. Of course.
    Mr. Griffin. Can you tell me, sort of, what the status of 
that is, number one? And your frank opinion on how realistic 
this initiative is in the short term, and how you see this 
developing, and how long you think it will take to truly turn 
Afghanistan into a trade and energy hub. And I would like to 
add to that, whether you see long-term opportunities for United 
States companies to be a participant in that. Lord knows we 
have invested a lot of money and blood and treasure there, and 
we certainly should be at the table.
    Mr. Blake. Thank you for that important question, sir. 
First of all, I should say the New Silk Road is really more of 
a vision. It is not a specific initiative. And I also should 
say that this is not something that we are asking Congress to 
appropriate large amounts of money for. Most of the funds for 
this regional integration effort are going to come from 
international financial institutions, of which we pay a portion 
of their budget--I mentioned earlier the important work that 
the Asian Development Bank is doing--but also, importantly, 
from the countries themselves. And as I said in my opening 
remarks, the heart of the vision is, how are we going to create 
economic opportunity for Afghanistan, for the people of 
Afghanistan, after 2014?
    There is obviously great concern that, as military forces 
begin to pull out, a lot of the spending that they are now 
responsible for will go with them, and that that will have an 
impact on the Afghan economy. And that, in turn, could lead to 
loss of economic opportunity. So we have got to find a way to 
replace that, and the best way to do that is to build up the 
private sector in Afghanistan. Afghanistan remains a very poor 
and underdeveloped country, so our view and Afghanistan's view 
is that the best way to encourage private ctor development is 
to encourage regional integration.
    So we, and the countries of the region, are embarked on 
this vision to develop the roads, the rails, the electricity 
transmission networks, the pipelines, and all of the other 
infrastructure that will be needed to help promote regional 
integration.
    And I would say what is most important about this is that 
the countries of the region themselves have embraced this; 
Turkmenistan, Uzbekistan, Tajikistan and many of the other 
countries, because they see the logic of this. The Chinese see 
that it makes much more sense for them to export directly via 
Kazakhstan, and ship things straight through Kazakhstan and 
into Europe, than to ship things all the way around at a much 
higher cost and much longer.
    Likewise, the Russians understand that there is a 
tremendous benefit to them going straight through Uzbekistan to 
the markets of Turkey and beyond, and so there are many, many 
examples of that. And as the chairman said in his opening 
statement, Central Asia is right in the center of all of those, 
so if they can just get those incentives right and open up the 
infrastructure and reduce the obstacles, not only will Central 
Asia benefit, but the Afghans will benefit. And that is in our 
interest.
    Mr. Griffin. I want to ask one more question, and my time 
is running low, related to this. It seems we have an 
inconsistent history of leveraging our involvement and our 
investment and our spending, in our blood as well as our 
treasure, to make sure that once the marketplace is sort of 
constructed or relatively operational, that we have an 
advantage, because we were there first, or we were there with 
money, et cetera.
    And I am not going to have a lot of time here, but I would 
like for you to tell me what, specifically, what lessons have 
we learned from Iraq in terms of making sure that, after the 
peace is achieved, or after we have left, or whatever the 
benchmark is, how do we make sure that we have a structural 
specific advantage that we can count on, and not just do all of 
this stuff--and I was in Iraq in '06, before I got to 
Congress--not just do all this stuff, and leave, and say, ``I 
hope we can compete now.'' We ought to be doing specific things 
to make sure that American companies have advantages, after we 
have spent all this money. If you could comment on that, I 
would appreciate it.
    Mr. Blake. Well, let me just say, since we have been 
talking about Central Asia, we are trying to do a lot. I 
mentioned how we are trying to promote business directly 
through trade missions and so forth. Another area is in the 
area of infrastructure development, and probably the biggest 
single infrastructure program is going to be this Turkmenistan-
Afghanistan-Pakistan-India gas pipeline, and a gas sales 
purchase agreement has now been signed between Afghanistan and 
Pakistan and Turkmenistan, the source of the gas.
    But the next step will now be to form a consortium, and we 
have strongly advocated on behalf of American companies who 
might be asked to lead this consortium. It would obviously be a 
very big deal for them, and a very big source of revenue for 
them.
    So that is one example of how we are doing whatever we can 
to try to support American companies. But there are a lot of 
others as well. We have just----
    Mr. Griffin. Well, if I could interrupt?
    Mr. Blake. Of course.
    Mr. Griffin. What I am interested in is not whether we are 
using our soft power to say, ``These are good companies.'' What 
I am talking about is cutting deals that say--certainly there 
is national security money, and what have you, that we are 
going to spend regardless. But that say, ``If we are going to 
give you this, then we are going to get this,'' where we have a 
guaranteed--not a hoped-for, but a guaranteed role in certain 
projects, because of all we have done for them. That is what I 
am interested in.
    Mr. Blake. Again, on the one hand, we certainly, definitely 
want to support our companies, and we look for single-source 
contracts wherever we can, and a lot of American companies are 
doing a lot of business right now, like on the Ring Road in 
Afghanistan. An American company just won a several-hundred-
million-dollar project there. But at the same time, we also are 
consistently advocating for open markets and transparency and 
so forth, and so we have got to be also true to our values.
    So we try to strike that balance. And yes, we want to 
support our companies, but our companies are ultimately going 
to succeed because they are the best and the most efficient, 
and they are going to benefit from an open system. So it is 
really in our interests to promote that kind of an open, 
competitive system.
    Mr. Griffin. Right. If all countries--I am sorry, Mr. 
Chairman.
    Mr. Burton. That is all right. We have another panel, and I 
want to make sure that we get to them. Mr. Marino, you had 
another comment that you wanted to make real quick?
    Mr. Marino. Request for 1 minute. Thank you. Thank you, 
sir.
    Mr. Secretary, you are doing a fine job on the hotseat. I 
respect you. You are a brilliant man, and I know you are 
dedicated, but sometimes we have a tendency to--not sometimes, 
usually, we weave a very intricate web, whether it is by 
intention or just because of the nature of the beast. But you 
understand my concern here when I raise this issue. The leaders 
in Iraq--and I have studied this every way that I can--the 
leaders in Iraq have passed legislation that say that they are 
immune from any potential prosecution or responsibility for 
missing funds.
    Now, this is extraordinary. We are looking at, at minimum, 
$10 billion missing. Now, the Iraqis and some individuals here 
in the U.S. will say, ``Well, that was their money.'' First of 
all, I do not believe that. And second of all, it is all 
fungible. But this is just what I do not want to happen. And 
please, please do whatever it is in your power, and in the 
State Department's power, to make sure that this type of thing 
does not happen again, because we in Congress, and particularly 
the freshmen and freshwomen, we are frustrated to the point 
where it will not take long for us to say, ``We are passing 
legislation that stops any aid under these circumstances, and 
to these countries in the Middle East.'' Please take it very 
seriously sir, as I know you will.
    Mr. Blake. Mr. Marino, let me just assure you, I have done 
work in the Foreign Service for 27 years, and we, all of us in 
the State Department, take very seriously our responsibility to 
steward the resources of the American people. And I can just 
tell you that this is something we talk about every single day, 
is the importance of making sure that our money is used wisely, 
and that it is going to benefit the interests of the American 
people, and that we are not going to try to, in any way, 
sustain corruption, which is a cancer in Central Asia, and 
something that has got to be rooted out, and is a real source 
of instability for these countries.
    We talk a lot about how the Arab Spring, the reason the 
Arab Spring occurred, or one of the reasons, was youth 
unemployment. But another was the stark difference between the 
corrupt, lavish lifestyle that the elites were leading versus 
the difficulties that the young, unemployed, mostly men of 
Egypt and Tunisia were living. And this is a lesson that the 
leaders of Central Asia have got to respect, and I am sure the 
chairman knows about this.
    Mr. Burton. Thank you, sir. That is another subject for 
another time, because there are a number of us that have a 
little different view on Libya, Egypt and how we are handling 
those issues.
    But thank you very much, Mr. Secretary. We really 
appreciate your very thorough briefing today. Really appreciate 
it.
    Mr. Blake. Thank you, Mr. Chairman. And again, thank you so 
much for your engagement.
    Mr. Burton. Okay. Our next panel consists of Ambassador 
Ross Wilson. He is the director of the Atlantic Council's Dinu 
Patriciu Eurasia Center, a lecturer in international affairs at 
George Washington University, and chairman of the board of the 
Institute of Turkish Studies. Ambassador Wilson spent three 
decades in the U.S. Foreign Service, including 6 years as 
American Ambassador to Turkey and to Azerbaijan.
    Dr. Ariel Cohen serves as a senior research fellow in 
Russian and Eurasian studies and International Energy Policy at 
the Heritage Foundation, and Dr. Cohen has published six books 
and over 500 articles in professional and popular media. 
Currently he is contributing editor to The National Interest, 
and a blogger for Voice of America.
    And our third witness is Mr. S. Enders Wimbush. He is a 
senior director for foreign policy and civil society at the 
German Marshall Fund of the U.S. Prior to joining the GMF, Mr. 
Wimbush served as a Senior Vice President of the Hudson 
institute, and spent 10 years at Booz Allen Hamilton and 
Science Applications International Corporation. Mr. Wimbush 
also served as a member of the United States Broadcasting Board 
of Governors from 2010 to 2012, and he is an author and editor 
of a number of books on Central Asia.
    Gentlemen, thank you very much for your patience. We really 
appreciate it. So let us start with you, Mr. Wimbush.

 STATEMENT OF THE HONORABLE S. ENDERS WIMBUSH, SENIOR DIRECTOR 
FOR FOREIGN POLICY AND CIVIL SOCIETY, THE GERMAN MARSHALL FUND 
                      OF THE UNITED STATES

    Mr. Wimbush. Thank you, Mr. Chairman, Mr. Ranking Member. 
It is a pleasure to be here together.
    For America's interests, objectives and strategies in 
Central Asia, it should elicit an immense and intense response 
for engagement from this Congress, but it is one of the few 
parts of the world which deserves such an interest, which has 
been so systematically ignored over the last two decades.
    So why should we pay attention to Central Asia today? What 
strategic interests does the United States have there, and how 
should U.S. policy reflect those interests? Allow me to suggest 
four ways around which we might organize our thinking on this 
issue.
    First, Central Asians today are no longer part of the 
Russian empire, and I would argue that they are rapidly moving 
out of Russia's historical sphere of influence. That said, all 
Central Asians are mindful of Russia's continued designs on its 
former imperial territories. They occasionally trim their 
policies to favor Russian preferences and priorities, though 
this happens less and less. No one in Central Asia wants to 
poke a sharp stick in Russia's eye, but neither do they roll 
over automatically when Russia asserts its interests over 
theirs, and more and more frequently they adopt courses that 
favor their own interests over those of the Russians.
    Put another way, all the Central Asian states are crafting 
and implementing independent foreign policies. They interact 
with a wide variety of actors whose interests the Central 
Asians accommodate or contest.
    This brings me to my second point. China, increasingly, is 
the large power Central Asians defer to. China's presence in 
Central Asia, especially its economic power, has grown 
dramatically in the last two decades. Its strategy is complex 
and integrated, approaching the level of grand strategy. At its 
heart, as we have heard, is gaining access to Central Asia's 
abundant energy resources and strategic minerals, while 
securing transport over land to China that cannot be 
interdicted easily.
    China seeks to marginalize a weakening Russia in Central 
Asia, to take advantage of the power vacuum left by America's 
departure from Afghanistan, and deter ambitions by Central 
Asia's other large power, India, which it seeks to outflank 
along India's vital northern frontier. China has developed 
increasingly robust trade routes and economic enterprises in 
Central Asia. It sweetens its trade development deals with soft 
loans, direct payments, and advanced technologies. Beyond this, 
China's assistance comes without the criticism of Central Asian 
states' spotty records on human rights and democratic 
practices.
    China's rise and Russia's decline introduces my third 
point, and that is quite simple. The shape of the geostrategic 
competition in Central Asia is changing radically, with more 
actors seeking more opportunities to satisfy their own 
objectives there. Russia and China are the most active today, 
but they are joined by India and others. From the Indian point 
of view, to allow China free rein in Central Asia cedes a 
critical frontier in its competition with China, a competition 
that touches Afghanistan, Pakistan, Kashmir, and even Tibet.
    Turkey, too, has vital interests in Central Asia, driven by 
ethnic, cultural, linguistic attachments, and a natural 
facility for trade. Iran is first and foremost a Central Asian 
state, which we tend to forget, and its influence through 
culture and history remains extremely powerful there. While it 
is not clear at this point that Iran currently has the capacity 
for a grand strategy that embraces Central Asia, it still looks 
to enhance its strategic position there while complicating the 
strategic position of other actors.
    The Gulf Arab states have also been active in Central Asia, 
particularly Saudi Arabia, mostly to inject into Central Asia's 
fertile soil their own brand of Islam. Other actors could shape 
this landscape further. The United States and Europe both 
figure in this tentative category, along with Japan, Korea, and 
other Asian states.
    I wish to underline this point. The Central Asia American 
policymakers must deal with today is composed of many moving 
forces, not just one or two. Moreover, these multiple forces 
are already in motion, anticipating America's withdrawal from 
Afghanistan. We tend to think of that withdrawal in 2014 as a 
snapshot in time, but it is not, because the Central Asian 
governments, as well as the outsiders who seek to improve their 
strategic advantages in Central Asia, see this as a process 
that began the moment our departure was announced. Most are 
actively recalibrating objectives and redesigning strategies 
that reposition themselves now with the idea of consolidating 
positions once the Americans are gone.
    Fourth and finally, what is America's interest in all of 
this? At the most basic level, Central Asia no longer resides 
on the far periphery of the West. As Europe has expanded 
eastward, Central Asia, quite naturally, has increasingly 
become Europe's new borderland. Kazakhstan held the presidency 
of the OSCE in 2010. Energy umbilical cords stretching from 
Central Asia feed Europe, feed Asia, feed Turkey and the global 
marketplace in which the United States does business. Helping 
to maintain the stability and develop the prosperity of this 
region is therefore a pressing national interest for the United 
States and Europe.
    Nowhere in the world does such competition involve so many 
nuclear powers--China, Russia, Pakistan, India--with several 
nascent nuclear powers--Iran, Turkey--standing in the wings. 
Serious conflict in Central Asia should be seen neither as 
without consequences for us, nor far away.
    Is it in America's interest for China to sit alone astride 
Central Asia's energy and resource corridors, to effectively 
flank American ally India, and to consolidate a strong Central 
Asia position in concert with Central Asian actors like Iran 
and Pakistan, which enjoy China's support? This question should 
preoccupy American critical thinking and strategic thinking.
    Central Asia's pathway of drugs from Afghanistan is another 
compelling American interest. With American activity there 
winding down, we can expect that pathway to take on new energy. 
Similarly, it takes little energy to imagine Islam finding new 
adherents and campgrounds in many parts of Central asia, 
especially in the Fergana Valley.
    The upside--and I will finish right now, Mr. Chairman--the 
upside of Central Asia's development is especially appealing, 
as Mr. Meeks noted. Opportunities for developing robust trade 
corridors and overland routes between East and West across 
Central Asia could kickstart the economies of many American 
friends and allies across the region, including in the Caucasus 
and the Black Sea.
    So in conclusion, finding reasons for a robust and active 
American engagement with and in Central Asia is not difficult, 
and in my view reasons to avoid it are shortsighted. But to 
engage effectively, we need to understand what the strategic 
chessboard looks like, how the players are establishing their 
objectives on it and designing strategies to pursue those 
objectives. A good assessment of where those strategies are 
likely to collide, to cause conflict, or coalesce, to converge, 
to create something larger than the sum of their parts, is 
urgent. I agree, with great respect, with Congresswoman 
Schmidt. We do need a plan for Central Asia. But more than a 
plan, we need a strategy.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wimbush follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you, Mr. Wimbush.
    Mr. Wilson.

STATEMENT OF THE HONORABLE ROSS WILSON, DIRECTOR, DINU PATRICIU 
                EURASIA CENTER, ATLANTIC COUNCIL

    Mr. Wilson. Mr. Chairman, it is an honor to be part of this 
hearing today. In addition to these brief remarks, I would ask 
that my longer statement be entered into the record.
    In testifying before this committee almost exactly a year 
ago, at a session on Eurasian energy, I made the point here 
that members of this committee, and of Congress, need to travel 
to the region to get to know their people, to become familiar 
with their issues. I will add to what Assistant Secretary Blake 
said in commending you for your leadership in taking your group 
there. I know that these kinds of trips help to advance 
American interests in the region, and all around the world.
    I won't comment at length on the situation in Central Asia 
as I see it. I think my colleagues and Assistant Secretary 
Blake, and you yourself, have done more than an adequate job of 
that. Obviously, it is a region that is troubled by many, many 
problems: Governance often of too low quality and too much 
authoritarianism. The rule of law has got a lot more rule and a 
little bit less law than might be desirable. The cultures of 
freedom and accountability are weak in this part of the world. 
Economic opportunity has expanded, but poverty is a huge 
problem. Externally, others have referred to the problems that 
the region faces: Afghanistan, Russia, China, Iran. And I would 
add to what Mr. Wimbush said, fear of U.S. neglect.
    Everything about Afghanistan is a problem for Central Asia. 
Nowhere in the world is what we euphemistically refer to as a 
transition in Afghanistan viewed with more concern or alarm 
than in Central Asia. Since achieving independence, the Central 
Asians have wanted a robust and consistent American presence. 
They see us as a balancer vis-a-vis Russia and China, and as a 
source of options in their foreign policy, in terms of security 
and in their economic development.
    Throughout the 1990s, the United States did a great deal to 
try to meet those requirements. A 2010 Atlantic Council Task 
Force that I was part of found that, after 9/11, our policy and 
our activities in Central Asia changed quite significantly. 
Securing support for U.S. and Coalition operations in 
Afghanistan became the overriding priority. Winning the war, 
obviously an extremely important set of priorities, replaced 
comprehensive support for long-term development based on 
democratization, market reform, trade, energy and regional 
cooperation that is essential if Central Asia is to succeed, 
and itself not become a future Afghanistan. We made a number of 
recommendations. Many of those were acted upon by the 
administration, and I commend Assistant Secretary Blake for his 
leadership.
    Going forward, at least six things seem important that I 
would like to identify here.
    First, the United States should further strengthen its 
engagement in the region. Afghanistan must remain a very 
frequent topic of conversation with these countries. The annual 
bilateral consultations that Assistant Secretary Blake referred 
to should be continued, and periodically brought up to the 
Cabinet level, or even above that, and the civil society 
component that he refers to that exists with Kazakhstan needs 
to be stretched out into the other countries. No President, no 
American President, has ever visited this region. One should.
    Second, we need to further rebalance and better coordinate 
our diplomacy in Central Asia. Our Ambassadors need to be more 
strongly supported by all U.S. Government agencies as the U.S. 
Government coordinators on the ground. In Washington, the 
President should appoint a senior director for Central Asia at 
the National Security Council to more effectively coordinate 
our policy and its execution. And I would note, 
parenthetically, Central Asian management at the NSC belongs to 
the senior director for Russia. Leaving aside the optics of 
that, I think a mixing of such responsibilities will not 
produce the results that we need.
    Third, we should add to our continued advocacy on issues of 
democracy, human rights, and the rule of law. Greater emphasis 
on trade, and in particular accession to the World Trade 
Organization--and I was pleased by what Ambassador Blake had to 
say on this. WTO membership will help build prosperity, but 
will over time strengthen the domestic constituencies 
interested in the fair and consistent application of the law, 
respect for property and other rights, open borders and 
societies, and the political pluralism that these countries 
need.
    Fourth, with all due respect to what Assistant Secretary 
Blake had to say about the Silk Road, I think we should be much 
more serious about it. The President should appoint a senior-
level special envoy to lead our work on this initiative, with 
the regional players and with the international financial 
institutions, to work on both the physical and especially the 
policy infrastructure to make the Silk Road a 21st Century 
reality.
    Fifth, we should strengthen the Central Asia dimension of 
the OSCE. The OSCE should expand its presence, which is very 
slender in these countries, and its on-the-ground work on 
inter-ethnic issues, crisis management, trade and economic 
development, counternarcotics, and in other fields. Better 
organization and more effective advocacy will be very good for 
our policies in the region.
    Our programs also, of course, require resources for our 
diplomats to work with. In Fiscal Year 2002, the United States 
budgeted some $328 million to support our policy goals in 
Central Asia. I understand the administration's request for 
FY13 amounts to $96 million. I don't know what the right sum 
is, and of course you and your colleagues are grappling with 
very difficult challenges as we try to confront our budget 
deficit. Especially in light of the draw-down in Afghanistan, 
and its implications for already very vulnerable Central Asian 
societies, I urge members of this committee to work with the 
appropriators and the administration to ensure that our 
policies have the resources necessary so that they can succeed.
    Thank you very much.
    [The prepared statement of Mr. Wilson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you, Mr. Wilson. And I appreciate the 
five ideas that you have there. We will take those to heart, 
and send those to some of the people in the administration, 
including the Secretary.
    Mr. Cohen?

 STATEMENT OF ARIEL COHEN, PH.D., RESEARCH FELLOW, THE KATHRYN 
 AND SHELBY CULLOM DAVIS INSTITUTE FOR INTERNATIONAL STUDIES, 
                    THE HERITAGE FOUNDATION

    Mr. Cohen. Thank you very much, Mr. Chairman. Ladies and 
gentlemen, thank you for inviting me to testify. A year ago, it 
was my pleasure to testify before this subcommittee on the 
subject of Eurasian energy. Unfortunately, not much has been 
accomplished by this administration to facilitate U.S. access 
to Eurasian and Caspian energy resources on a level playing 
field since.
    Central Asia boasts natural and human resources which, if 
they were to fall in the hands of Islamists, could shift the 
strategic balance in their favor. If Afghanistan falls into the 
hands of the Taliban, the brittle authoritarian polities and 
societies of Central Asia would come under pressure. And if 
Russia manages to reestablish its dominance in the region, it 
will take another important step toward reconstructing a 21st 
Century version of its empire. Finally, the Chinese influence 
in the region is growing. China is already the leading trade 
and investment partner, and for now it is happy to outsource 
security for Russia. However, history teaches us that as a 
country's foreign wealth grows, it projects power to protect 
its assets, and China in this respect will not be an exception. 
The Shanghai Cooperation Organization, a China-Russia 
cohabitation platform, in the future will be capable to project 
power into the heart of Eurasia.
    Central Asia, however, is important beyond its energy 
resources. At stake are strategic access and a level playing 
field. First, the U.S. needs to make sure that no hegemonic 
power dominates the region or defines the rules of the game 
such as to exclude American security interests. Second, the 
U.S. needs to assure that no regional hegemon denies a level 
playing field to U.S. corporations through corruption and 
undermining the rule of law. And finally, it is in the 
interests of the United States and its allies to assure that 
Western values and ideas are not subverted in the region, be it 
through the spread of Islamist radicalism or domination by 
market authoritarians, such as Russia or China.
    It is in the U.S. interest to remain engaged in all three 
realms: Security, markets, and democracy, and good governance. 
Otherwise, the U.S. and our allies can become irrelevant in the 
heart of Eurasia, which eventually could put pressure on our 
partners in Eastern Europe.
    Unfortunately, this administration for the last 4 years 
neglected the post-Soviet space in general, and the heart of 
the Eurasian landmass in particular. The challenges of Central 
Asia's transition to power from the hands of the post-Soviet 
elites in the wake of the collapse of Soviet-era communism have 
not been adequately addressed by this administration.
    The rulers of Kazakhstan, Uzbekistan and Tajikistan, and of 
Kazakhstan and Uzbekistan in particular, are in their 70s, and 
have been in power for over 20 years. Political institutions, 
especially in Uzbekistan, Tajikistan and Turkmenistan, are 
weak. While China and Russia are grooming successors, the U.S. 
has taken a passive position.
    Let me talk a little bit about Russian reengagement in 
Central Asia. After a decade of relative inactivity, Russia has 
established and is leading the customs union, the Eurasian 
economic space, and now the Eurasian Union, the brainchild of 
Vladimir Putin, in an attempt to secure Moscow's economic 
domination. It is also a partner in the Shanghai Cooperation 
Organization, with China.
    The Eurasian Union, which was founded last year by Russia, 
Belarus, and Kazakhstan, spans 10 time zones, from the Polish 
border to the Pacific, and is likely to strengthen Moscow's 
economic and political influence in the region. It will favor 
intra-Eurasian Union trade versus international trade, 
prioritize Russia-oriented infrastructure projects, and 
eventually attempt to issue a common currency. Ironically, the 
European Union, which is the model for that, with its current 
setbacks appears to be demonstrating how successful such an 
attempt ultimately may be.
    The top leaders of the Eurasian Union claim that 
integration will not affect their sovereignty, the sovereignty 
of their member states. However, it is hard to imagine that 
this will actually be the case, as Vladimir Putin has publicly 
declared that ``the collapse of the Soviet Union was the 
greatest geopolitical tragedy of our time.'' Presumably, in 
Putin's eyes, the creation of the Union is supposed to rectify 
this injustice.
    The Kremlin see the creation of the Eurasian Union as 
``solidifying its grip on Russia's zone of privileged 
interests.'' That is a quote from President Medvedev. And that 
is, or should be, precisely the concern of many in the West and 
Eurasia.
    Let me move to economic reform and WTO membership for 
Central Asian states. The economic performance of these 
countries remains uneven. For example, Kazakhstani economic 
development makes it a regional leader and a top reformer. Yet, 
the Central Asian Index of Economic Freedom, developed by the 
Heritage Foundation, suggests that there is quite a bit of room 
for improvement. In particular, they should include reducing 
government involvement in the economy, divesting from asset 
ownership by the government, including in the natural resources 
and energy sectors, streamlining social safety networks, 
fighting corruption, and boosting the rule of law. All these 
are challenges for the future membership.
    Finally, what the U.S. should do to remain relevant to the 
21st Centry Eurasian geopolitics that my colleagues so 
eloquently elaborated on. The U.S. has to conduct a systematic 
analysis of our strategic priorities in the region and 
formulate appropriate long-term policies which span the 
Departments of State, Defense, Energy, and the Intelligence 
Community.
    At the same time, we should remember that geography and 
history dictate that these countries maintain good relations 
with Russia and China, their nuclear-armed, huge, neighbors. 
Thus, Washington should not see these triangular ties as a 
zero-sum game, and appreciate and understand the multi-vector 
policies of Central Asian states. We can provide educational 
opportunities for the new elites from these countries. In fact, 
U.S. education is prized all over the world, including in 
Central Asia, and we had many, many students from the region 
going back and contributing to economic and political 
development of their countries.
    The U.S. should employ all elements of state power to 
provide the continuous U.S. involvement in Eurasia by 
strengthening bilateral partnerships and regional cooperation 
with key states, especially Kazakhstan and Uzbekistan. 
Strengthening these cooperative relations, including in 
defense, security, energy, and economic development, and the 
rule of law and good governance spheres, should be our top 
priorities.
    After the draw-down of U.S. and NATO troops in Afghanistan, 
it is in our national interest to remain fully involved in the 
heart of Eurasia, managing change and contributing to its 
stability, rather than abandoning the field to Moscow, the 
Islamists, or to Moscow's de facto regional competitor, 
Beijing.
    Thank you very much.
    [The prepared statement of Mr. Cohen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Well, all three of you made very cogent and 
thorough statements. Mr. Wilson, you talked about the resources 
in Central Asia. How do you propose that we get those 
governments to start dealing with American companies? When we 
were over there, Genie Energy, G-E-N-I-E Energy, had contacted 
me because they were interested in the potential or possibility 
of doing business in Uzbekistan or Kazakhstan, exploring for 
natural gas or coal oil shale. And we worked to set up some 
appointments for them, like we would any company that was over 
there.
    How do you deal with these countries, as far as getting 
past the bureaucracy and the regulation. It was very difficult 
to understand how you do that. And even though we provided 
meetings for those folks, I am not sure that we found an answer 
on who do you talk to and how do you deal with these problems, 
in order for the United States to be able to extract those 
kinds of energy sources?
    Mr. Wilson. Mr. Chairman, all of these economies are very 
robust, sometimes predatory environments, in which any foreign 
company--or sometimes any company at all--tries to carry out 
commercial operations. And they are tough places for Americans.
    In my experience, I think several things can combine to 
produce success. Assistant Secretary Blake referred to the 
business delegations that he takes over with him. They are in 
his meetings with the foreign minister, with the minister of 
trade, with the prime minister. That conveys to those host 
government officials a kind of interest that is a little bit 
different from when a company just pitches up in the capital.
    I think, second, our Ambassadors--and having served as an 
Ambassador twice--can play a key role also at the top, on day 
in day out--maybe not day, but certainly on a weekly, very 
periodic basis, going in and trying to push on things. When I 
was serving as Ambassador in Azerbaijan, McDonald's was trying 
to establish a foothold there. I think I had about 10 meetings 
with the President. It seems absurd that you should have to 
have 10 meetings with the President to open a hamburger place, 
but it worked. And eventually, they were able to open up 
operations. They now have eight or 10 outlets there. They are 
doing successful business. In the oil and gas sector, it is a 
little bit easier, because there is a pull locally. In other 
sectors, it is a little bit more complicated.
    The last thing I would say, and throughout Central Asia I 
am pretty sure this is still the case, the Foreign Commercial 
Service, U.S. Foreign Commercial Service, has no presence at 
all. They may have come back to Kazakhstan, but in the other 
countries I believe they are not there.
    Mr. Burton. So we need to have them there.
    Mr. Wilson. That is doing a disservice to American firms 
that need help.
    Mr. Burton. In your experience, companies of all types that 
go over there, do they have more success by meeting with 
cabinet officers or appointees, or do they just try to 
negotiate directly with the chief of state, head of state?
    Mr. Wilson. Different countries work in different ways. In 
that part of the world, my experience is that you kind of need 
to do both of those things. Often there needs to have been some 
contact at the very top. You have to work things from the 
bottom too, and so both approaches very much end up being 
necessary. Find a way to appeal to what it is that they want, 
what they are trying to achieve. Appeal to their interest in a 
closer relationship with the United States.
    Mr. Burton. And the only reason I am asking these questions 
is, there are a number of companies that are interested in 
doing business in that whole region, and they have asked what 
advice we can give them in order for them to do business over 
there. And not being an expert in foreign business, it has been 
very difficult, so I thought possibly you could give us some 
advice on that.
    Mr. Wilson. I think the key word is ``perseverance,'' Mr. 
Chairman.
    Mr. Burton. Perseverance. Okay.
    Mr. Cohen, you talked about working to get new leaders. Can 
you explain how you would do that? I mean, some of these 
leaders, like you say, have been there for 20 years or longer, 
and they are not likely to give up power easily. So when you 
talk about new leaders, how can the United States be involved 
in bringing about some positive change in some of these 
countries?
    Mr. Cohen. Thank you, Mr. Chairman. Excellent question. 
First of all, unlike Uzbekistan, Kazakhstan is much more open 
in acknowledging that a transition eventually will take place. 
Unlike the Uzbeks, the Kazakhs recognize that people are 
biological beings and do not live forever. And in respect to 
the leadership transition, we can communicate with our Kazakh 
friends in terms of how we envisage it, how it can be open, how 
a number of leaders can compete, including in elections. In the 
future, recognize a mix of skills that it takes to lead a 
country. It is not an easy business, as you know.
    And I believe that our Kazakh friends will be more open-
minded about that than our Uzbek friends, but even with our 
Uzbek friends and in other places, people who have led the 
country for a long time recognize the physical limitations to 
that, the health limitations, so we can engage in discussions 
behind closed doors, very light touch if you wish.
    But also, when we observe the next generation and the 
generation after the next generation of leaders, we can engage 
them in different fora, invite them here, give them platforms, 
give them podiums, explore what their views are in terms of the 
future of their countries, first and foremost, how they see the 
future of their countries in terms of market development, 
transparency. We had talked about business development, which 
is very important for them, because it is jobs for them and 
prosperity for them, and for our companies as well.
    And once you identify in a more detailed way whom you want 
to deal with, you deal with those people, just like, as I 
mentioned, the Russians and the Chinese have their favorite 
horses there.
    Mr. Burton. Okay. Thank you very much. It is a very 
difficult question I asked you, and you have to be very careful 
when you are dealing with a country that has a leader that has 
been there for a long time, because I am sure that they resent 
our being involved. So I was just curious about your approach, 
so I appreciate your remarks.
    Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman. Just to jump in on 
that, let me say one of the things that I was impressed with 
when I went--and I think, Mr. Cohen, your observation about the 
older individuals is well taken. But I will tell you what I was 
impressed with, and what I was hoping would take place, was the 
level of parliamentarians that we met with.
    So that you can move or transform, hopefully--and I think 
that is an area that a number of us can work with in the 
international community--in strengthening the institutions and 
the parliamentarians, so that they, then, can have a democracy 
of their own, and it's not us coming in to say, ``This should 
be the leader'' or, ``That should be the leader,'' even if it 
means that there are going to be some feathers ruffled with us.
    I mean, some of us are upset because the one area where we 
did have a transition of government in Kyrgyzstan, now we have 
got a little contention with reference to Manas, what happens 
in 2014. But that was--I mean, we have got to praise them for 
the way that they got the democratic change, and that is, I 
hope, the way of the future, where we can work together in 
promoting democracy, and make it more of a parliamentarian-type 
system.
    That being said, let me ask Mr. Wimbush real quick, because 
I agree what you have been talking about, and Mr. Wilson, 
especially in regards to--I am all about trading. I think that 
that helps strengthen relationships, and makes us more 
interdependent. The challenges, I think, though, that the area 
has is diversifying the region's energy resources and its 
supply routes.
    So I was wondering whether, for example, are the Central 
Asian energy resources relevant to the European market, with 
what is going on now? Is that appropriate? Or are the markets 
of Russia, India, Pakistan, Afghanistan, China more relevant, 
and they are going to just have to focus on that? How do we 
work it?
    So, what do you think, Mr. Wimbush?
    Mr. Wimbush. Thank you, Mr. Meeks. I think the short answer 
to that is, these resources are going to be considered valuable 
and desirable wherever they can get them out. And the real key 
to this is getting pipelines in place to take them to markets. 
That being said, there are a lot of markets out there. A lot of 
markets. When you look at the energy coming across the Black 
Sea, it supplies over 50 percent of eastern Turkey right now. 
Look at the energy coming out of the Caspian, where there is a 
huge tug of war between taking it east or taking it west. The 
same is going to be true in Turkmenistan.
    I think that we don't have to get into energy wars here to 
understand that this is going to be an intense competition, and 
it is important for us to help shape that competition, as we 
have done in the past with the Baku-Ceyhan, which Ambassador 
Wilson had a great deal to do with, much to his credit, in the 
new TAPI pipeline that is coming up, and Nabucco, they all have 
strategic import that we need to focus on. And I think we can 
shape the direction that those things go.
    But the short answer is, getting it out is going to be the 
key.
    Mr. Meeks. Ambassador Wilson, let me ask you. As indicated 
by the Assistant Secretary, Kyrgyzstan is already in the WTO. 
And I think that there was, on our trip there, Kazakhstan and 
Tajikistan have great interest in joining the WTO.
    Do Uzbekistan and Turkmenistan have the same interest in 
joining the WTO? And if not, why is there a difference? Why are 
there some that want to get into the WTO, and others who don't?
    Mr. Wilson. Thank you for that question, Mr. Meeks. I think 
the interest of Uzbekistan and Turkmenistan is quite different. 
They are much interested in autarchic economic policies, except 
in the case of Turkmenistan with respect to energy. The 
governments there are particularly ill-disposed to signing on 
to international rules that might curb their freedom of action 
with respect to economic policy, and that might complicate 
practices that are standard in these countries and that are not 
standard around the world, and that would be banned under WTO 
rules.
    I think we should be pushing on them, and pushing on them 
as effectively as we can, through the local business community, 
through the American business community that is there. We can't 
force them to sign up, but I think making this a much higher 
priority is in our interest. As Russia gets in and as 
Kazakhstan gets in, the imperative for all of these countries 
will go up. I think that is one thing that Tajikistan has 
responded to, and hopeful Uzbekistan and Turkmenistan will as 
well.
    Mr. Burton. Mr. Marino?
    Mr. Marino. Thank you, Chairman. Good afternoon, gentlemen. 
I am assuming that my understanding from all of you in your 
opening statements is that you believe we should continue 
dialogue and fostering these relationships in Central Asia.
    With that said, who will the five 'Stans defer to against 
the United States? China, if their interest is economically 
better for them? Can we trust them?
    Please, any one of you can respond.
    Mr. Wimbush. Thank you, Mr. Marino. It differs. It differs 
across. Each of them has a different strategic calculation to 
make. The two who are the hardest pressed by China are 
Kazakhstan and Kyrgyzstan. Not surprisingly, they have a border 
with China, and that makes a huge difference. The Chinese are 
very, very good at this kind of economic development, in 
leaving boots on the ground behind them. Almost everyplace they 
go, they take their workforces, they bring their security 
forces. They tend to dominate a region.
    The reason that we have been reasonably successful in our 
competition with them, not just in Central Asia, although I 
wouldn't want to overstate that, but in places like Africa, is 
that the Chinese tend to be culturally tone-deaf. They don't 
integrate well with the communities around them.
    That said, the key to Central Asia here is Uzbekistan. It 
is the largest. It is the most dynamic. It does not have a 
border with China. And it is going to be the hardest to engage, 
because of all kinds of things that you discovered when you 
were out there.
    Mr. Marino. Are you telling me that these countries will 
not be influenced by China's money?
    Mr. Wimbush. They are already influenced, Congressman.
    Mr. Marino. My point.
    Mr. Wimbush. If you take a casual stroll down the main 
street of any Central Asian city, or even in the backstreets, 
the shops are all crammed with Chinese goods, the hotels are 
filled with Chinese businessmen, usually connected to the State 
in some cases, the manufactured products are coming out of 
China, and so on and so forth.
    Mr. Marino. Thank you.
    Mr. Wimbush. You can hear Chinese from the loudspeakers in 
the bazaars, and the Chinese language is being taught through 
Confucius Institutes almost everywhere in Central Asia now.
    Mr. Marino. Ambassador Wilson, what does Afghanistan have 
to offer us?
    Mr. Wilson. What Afghanistan has to offer is more heartache 
and trouble. And therefore, we have a profound interest in 
minimizing that heartache and trouble, and minimizing the 
extent to which it spreads elsewhere.
    Mr. Marino. Doctor, what----
    Mr. Burton. If I might?
    Mr. Marino. Please, go ahead, sir.
    Mr. Burton. Can you elaborate on that just a little bit? 
You know, one of the questions I was going to ask was Iraq and 
Afghanistan in the future, which is totally outside our region 
of concern, but can you just elaborate a little bit on Mr. 
Marino's question?
    Mr. Wilson. Sure. I mean, of course there are positive 
things that one could look to that Afghanistan can offer to the 
region and the world. Last year and the year before, publicity 
about U.S. Geological Survey work in Afghanistan found all 
kinds of minerals. The TAPI pipeline that was referred to 
earlier, that can be important in building a more peaceful 
future for South Asia. Those are good things, and maybe they 
will come about at some point in the future.
    I think for the foreseeable future, what Afghanistan has to 
offer is trouble and difficulty.
    Mr. Marino. Well, name me a company that is going to go in 
and invest hundreds of millions of dollars in Afghanistan based 
on present-day situation. It is not happening.
    Mr. Wilson. I would agree.
    Mr. Marino. Go ahead, Dr. Cohen.
    Mr. Cohen. Unfortunately, I don't have the name of that 
company. Maybe someone knows it, but it is a Chinese company 
that has invested $1 billion in copper and other minerals. So 
there are brave people who are investing in Afghanistan. They 
are not Americans.
    Mr. Marino. For future? For future benefit, right? Because 
I was over there. I have been in Afghanistan twice now, and I 
have seen no production of anything whatsoever.
    Dr. Cohen, what illegal drug activity is taking place in 
the five 'Stans?
    Mr. Cohen. Excellent question. And as a former prosecutor, 
I understand where you are coming from.
    Traditionally, even in the Soviet era these countries did 
two things. A, they produced cannabis, and B, they had harvests 
of opium poppy, and produced some amount of opium-related 
drugs. Now the main role, probably, is a transit role. The huge 
flood of heroin and other drugs come from Afghanistan via all 
five countries, and into Russia, and further into Western 
Europe and other markets. It is a big, big problem.
    Mr. Marino. I really knew the answer to that question. I 
wanted to hear it from you, given the fact that the regime 
there isn't going to change the pace. It is keeping those 
countries afloat.
    My last question, if I may, corruption. Let us go back to 
corruption. I think you were sitting in the audience when I was 
questioning the Ambassador. How much did it cost McDonald's to 
build over there?
    Mr. Wilson. I am not aware that McDonald's did anything 
that was not fully consistent with the Foreign Corrupt 
Practices----
    Mr. Marino. Well, I am using that as a general--certainly, 
I didn't expect an immediate figure to come flying out there. 
That was more rhetorical. But again, being in the Middle East 
and traveling with the chairman, we have begun to understand 
the mindset of the individuals there. So I would hazard a guess 
that there are some funds funneling under the table at some 
point.
    I yield back.
    Mr. Burton. Let me end up by saying we really appreciate 
your patience. I know this has been going on for a long, long 
time, and to sit and wait for another panel and all the 
questions that were asked is very difficult. So we really 
appreciate that.
    I would just like to end up by saying one thing, and that 
is, even though we have some autocratic regimes in the 
countries that we visited, it seemed to me that they were 
anxious--and I don't know if Mr. Meeks feels this way. It 
seemed to me that they were anxious to reach out and work with 
us in some fashion.
    Mr. Meeks. No question about that.
    Mr. Burton. And I think that I felt that way because they 
were so gregarious, they were so anxious to talk to us, even up 
to the Presidential level. So you, as learned scholars, when 
you are talking about this region of the world, if you could at 
least express our positive views of getting over there to meet 
with the leaders and let them know that America cares, even if 
we don't have the resources to put in there like China, will 
carry an awful lot of weight.
    So with that, thank you very much. We really appreciate 
your testimony and your patience. We are adjourned.
    [Whereupon, at 5:29 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                        <n-iden-3><pound><box>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
            <Hoarfrost><star><star><acctof><careof><star>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
